<html>
<title> - [H.A.S.C. No. 111-142] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-142]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2011
                                  AND
              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

BUDGET REQUEST FOR MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURE, 
                  FACILITIES OPERATION AND MAINTENANCE

                               __________

                              HEARING HELD
                             MARCH 18, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-7600                   WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               ROB BISHOP, Utah
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
MADELEINE Z. BORDALLO, Guam          TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
GABRIELLE GIFFORDS, Arizona          MARY FALLIN, Oklahoma
GLENN NYE, Virginia                  JOHN C. FLEMING, Louisiana
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
MARTIN HEINRICH, New Mexico          MICHAEL TURNER, Ohio
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
                Dave Sienicki, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                    Katy Bloomberg, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, March 18, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request for Military Construction, 
  Family Housing, Base Closure, Facilities Operation and 
  Maintenance....................................................     1

Appendix:

Thursday, March 18, 2010.........................................    35
                              ----------                              

                        THURSDAY, MARCH 18, 2010
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
    MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURE, FACILITIES 
                       OPERATION AND MAINTENANCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Calcara, Joseph, Deputy Assistant Secretary of the Army, 
  Installations and Housing, U.S. Department of the Army.........     6
Ferguson, Kathleen I., Deputy Assistant Secretary of the Air 
  Force, Installations, U.S. Department of the Air Force.........     8
Natsuhara, Hon. Roger M., Acting Assistant Secretary of the Navy, 
  Installations and Environment, U.S. Department of the Navy.....     7
Robyn, Dr. Dorothy, Deputy Under Secretary of Defense, 
  Installations and Environment, U.S. Department of Defense......     4

                                APPENDIX

Prepared Statements:

    Calcara, Joseph..............................................    68
    Ferguson, Kathleen I.........................................   112
    Forbes, Hon. J. Randy........................................    42
    Natsuhara, Hon. Roger M......................................    84
    Ortiz, Hon. Solomon P........................................    39
    Robyn, Dr. Dorothy...........................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................   127
    Ms. Bordallo.................................................   127
    Mr. Forbes...................................................   127
    Mr. Holt.....................................................   128
    Ms. Shea-Porter..............................................   127

Questions Submitted by Members Post Hearing:

    Mr. Loebsack.................................................   137
    Mr. Ortiz....................................................   131
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
    MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURE, FACILITIES 
                       OPERATION AND MAINTENANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                          Washington, DC, Thursday, March 18, 2010.
    The subcommittee met, pursuant to call, at 2:40 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. The hearing will come to order. And we are sorry 
that we are a little late in beginning this hearing, because we 
had a series of votes. And in about an hour, 15, 30 minutes, we 
are going to have some other votes.
    But I thank our distinguished witnesses for appearing 
before this committee today. And today the Readiness 
Subcommittee will hear about fiscal year 2011 military 
construction and BRAC [base realignment and closure] programs.
    Overall, I continue to be pleased with the level of 
investment that the President has proposed in the BRAC and 
military construction programs. It provides a good balance 
among the various priorities and does an excellent job of 
supporting the warfighters in areas where they need the most 
help. But there are many areas that can be improved.
    In BRAC, I indicated during this same hearing last year, to 
some of the same witnesses here today, that I was concerned 
about the apparent rush to meet the BRAC deadline and to avoid 
wasting taxpayers' money. That is why I am surprised this 
Administration has decided to double and triple-shift 
construction workers at BRAC projects instead of requesting 
relief on the 2011 BRAC statutory deadline.
    I don't consider it to be in our government's best 
interests to spend several hundred million dollars above normal 
construction costs to artificially accelerate contracts, to 
move organizations into temporary trailers as a long-term 
solution, or to create traffic congestion with little thought 
given on how to alleviate local community concerns.
    We owe the men and women of our armed services, and the 
taxpayers of this Nation, the very best BRAC implementation 
plan that smoothly relocates forces.
    Let me turn to another subject that is equally concerning. 
The United States, and I think the government of Japan, are 
committed to moving 8,000 Marine forces from Okinawa to Guam. I 
support this move and believe it is in our two nations' best 
interest.
    However, it is becoming obvious there are many aspects of 
this plan that need to be improved. First and foremost is the 
inability of this Administration to pull together a 
comprehensive federal response that links the Department of 
Defense with the Department of Transportation, the Department 
of Interior, the EPA [Environmental Protection Agency], and 
other federal agencies. In the end, I believe our ability to 
relocate these Marine forces will be negatively affected due to 
the lack of an interagency response.
    I think it is time for the Department of Defense to take a 
leadership role, and possibly a fiscal role, in ensuring that 
this realignment is done correctly.
    I am also concerned about a lack of a comprehensive effort 
for housing and providing medical care for the construction 
workforce, the feasibility of completing the realignment by 
2014, and the large destruction of coral reefs to support naval 
assets.
    This committee has steadfastly supported this realignment 
effort, but I think it is time for the Department of Defense to 
assess what further steps we need to take to get this 
realignment done in the right and proper way.
    I would be remiss if I didn't also mention that the Army 
Base Operating Services account for fiscal year 2011 appears to 
be underfunded. I hope the Army witnesses will be able to 
discuss the impacts that this budget request, if enacted, would 
have on daily operations at Army installations.
    I do want to conclude my opening statement by mentioning 
that I continue to have a significant concern about the 
Department's implementing the overall realignment of the Walter 
Reed Medical Center. This Congress is not willing to risk a 
potential disruption of wounded warrior care.
    I am deeply troubled by the lack of a comprehensive plan to 
address the organizational and facility requirements to achieve 
the department's vision of a world-class medical center. As 
this committee evaluates fiscal options, there is no doubt we 
will fully support this vital mission, even at the expense of 
other services' priorities.
    Ladies and gentlemen, I think that we have a lot to discuss 
today. We have a lot to discuss today, and I look forward to 
hearing you address these important issues.
    The chair recognizes my good friend from Virginia, Mr. 
Forbes, for any remark or statement that he would like to make.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 39.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing.
    I also thank all of our witnesses for being here.
    We appreciate their efforts and for them being here. I had 
hoped that this year's military construction budget request 
would provide more clarity on a number of significant issues, 
but I am disappointed to find that once again we are presented 
with a host of unresolved issues.
    Last year we were frustrated by the lack of a Future Years 
Defense Plan, promises that the then-ongoing Quadrennial 
Defense Review would resolve strategic force basing decisions 
and uncertainty in our strategic direction for Afghanistan. 
Unfortunately, the passage of a year has not helped. Indeed, 
the situation may be even more muddled than it was previously.
    Although we now have an FYDP [Future Years Defense Plan] 
and QDR [Quadrennial Defense Review] and an Afghanistan plan, 
significant questions remain on how we allocate our military 
construction dollars. The QDR did not provide specific guidance 
on whether Army brigade combat teams and Air Force fighter 
squadrons should remain in Europe or return to the United 
States. Despite ongoing military construction to support those 
moves, we do not know whether the intended units will occupy 
these buildings or not.
    The QDR took one decisive stand that would have been better 
if it had not been made. The document recommended a second East 
Coast nuclear carrier homeport, and the budget before us 
contains only preliminary funding to initiate this 
controversial and very expensive move.
    Spending any money at all on this venture is wasteful, in 
my view, considering the large number of unmet ship, aircraft 
and infrastructure needs of the Navy, which as of December 2009 
included a shortfall of more than $36 billion in restoration 
and modernization for shore installations and a $3 billion 
shortfall for the four public shipyards.
    In addition to projects that remain unfunded, other 
critical construction is being deferred, such as the 
replacement of the controlled industrial facility at the 
Norfolk Naval Shipyard, which was deferred from this year's 
budget to fiscal year 2012.
    In other cases the budget proposed a certainty where we may 
need to pause. For example, the budget contains substantial 
funding for Joint Strike Fighter bed down, even though Fighter 
production has been delayed because of acquisition 
difficulties.
    The move of Marine forces from Okinawa to Guam is fully 
funded, while the new Japanese government is increasing serious 
resistance to honoring our bilateral roadmap, which could place 
the whole plan in jeopardy.
    Lastly, the budget contains over $1 billion for military 
construction in Afghanistan. I have no doubt that these 
projects are worthwhile and necessary for long-term operations, 
but as a Nation we are not yet committed to long-term 
operations. The President has committed to beginning our 
withdrawal from Afghanistan in July 2011, and none of the 
requested projects could be completed before then. While I hope 
that our drawdown will be measured, expending $1 billion for 
projects that neither we nor the Afghans may use is too much to 
ask of the American taxpayer.
    Since the department must finish base realignment and 
closure moves by September 2011, this budget contains the final 
BRAC projects. To date department officials have consistently 
testified that extending the statutory deadline for any 
particular BRAC recommendation was unnecessary. Even so, the 
chairman and I are aware of several cases where a tailored 
extension may make sense and save money.
    I encourage the witnesses to discuss pending BRAC deadline 
difficulties, especially in the case of medical facilities. We 
all understand the great sensitivity and complexity of closing 
Walter Reed and consolidating operations at Bethesda and Fort 
Belvoir. Although at heart a BRAC directed action, the 
implications of the consolidation go well beyond the technical 
dictates of the BRAC law.
    Once again, I urge the department to let us know of the 
difficulties not just in meeting the minimum BRAC 
recommendations, but of any issue that may negatively affect 
the delivery of world-class care to our wounded warriors, other 
beneficiaries, and their families.
    Once again, we are asked to approve the expenditure of 
several billion dollars for a number of unsettled propositions. 
I think we need more before we act favorably on this request.
    Mr. Chairman, once again, thank you for holding the 
hearing.
    Gentlemen, ladies, thank you for being here.
    And I yield back the balance of my time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 42.]
    Mr. Ortiz. Thank you.
    Today we are very fortunate to have with us very 
outstanding witnesses. And with us today is Dr. Dorothy Robyn--
--
    Doctor, good to see you again.
    She is the Deputy Under Secretary of Defense for 
Installations and Environment, Department of Defense; Dr. 
Joseph Calcara, Deputy Assistant Secretary of the Army, 
Installations and Housing; and Dr. Roger Natsuhara, Principal 
Deputy Assistant Secretary of the Navy, Installations and 
Environment; and Ms. Kathleen Ferguson, Deputy Assistant 
Secretary of the Air Force.
    We are happy and very fortunate to have you with us and the 
expert testimony that you are going to give us today.
    Without objection, the witnesses' prepared statement--
testimony will be accepted for the record. And hearing no 
objection, so ordered.
    Madam Secretary Robyn, you are ready?
    Dr. Robyn. I am ready. Thank you.
    Mr. Ortiz. Thank you, ma'am.

  STATEMENT OF HON. DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF 
  DEFENSE, INSTALLATIONS AND ENVIRONMENT, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Robyn. Thank you. Thank you very much, Chairman Ortiz, 
Ranking Member Forbes, other distinguished members of the 
subcommittee. Thank you. I appreciate the opportunity to 
present the President's budget for military construction.
    My written statement includes a great deal of detail on our 
$18.7 billion budget request for military construction, family 
housing, and BRAC. This is a decrease of $4.6 billion compared 
to last year's request due largely to the fact that we are 
nearing the end of the BRAC process and most of the military 
construction was funded in previous years.
    Our request for pure military construction exclusive of 
BRAC and family housing is actually up by $1.2 billion, and 
that includes--and let me highlight just two things--two key 
quality-of-life investments: $1 billion for new medical 
infrastructure and about half that much to initiate Secretary 
Gates' initiative to overhaul or replace two-thirds of our 
DODEA [Department of Defense Education Activity] schools over 
the next five years.
    But let me focus on two of the issues that the chairman and 
the ranking member both raised in their opening statements, 
Guam and then BRAC. I have been deeply involved in the 
Department's efforts to move 8,000 Marines and their families 
from Okinawa to Guam. Like any international effort this large 
and complex, the buildup on Guam faces an array of challenges, 
but no single realignment has a higher profile. Very few issues 
have a higher profile within the department, and the Deputy 
Secretary is personally overseeing this effort.
    Our fiscal year 2011 budget request includes $452 million 
for military construction on Guam. These projects will yield 
long-term benefits for all the military forces on Guam, 
including the ones that are there now. They will also 
demonstrate the department's commitment to working with the 
governor of Guam, whose strong support has been absolutely 
critical to our effort there.
    I appreciate the support that this committee has given us 
in the past on the Guam buildup, and I look forward to working 
with you closely as we move forward.
    Let me just briefly address the BRAC issue. We are 
committed to concluding, to finishing, completing all 220 
actions by the deadline of September 15. My staff briefed your 
staff two days ago on the six challenges that we have, ones 
that where the construction or the move-in will be completed 
very, very close to the deadline. We are watching this closely. 
We are working very closely with the services.
    We believe we can meet the deadline in every case, and in 
those cases where we are spending a little more to meet the 
deadline, we think it is worth it. We don't believe this is a 
place where one should do a narrow cost-benefit analysis. The 
benefits of meeting a BRAC deadline, BRAC being a mechanism 
where the process is extraordinarily important, we think those 
benefits are great, so in the last four rounds we have never 
missed a deadline. I will do everything possible to make sure 
that we keep that record on my watch.
    Let me close my statement there. Thank you very much.
    [The prepared statement of Dr. Robyn can be found in the 
Appendix on page 45.]
    Mr. Ortiz. Mr. Calcara, go ahead. You can begin your 
testimony, sir.

STATEMENT OF JOSEPH CALCARA, DEPUTY ASSISTANT SECRETARY OF THE 
  ARMY, INSTALLATIONS AND HOUSING, U.S. DEPARTMENT OF THE ARMY

    Mr. Calcara. Good afternoon, Mr. Chairman, Mr. Forbes, 
other members. Thanks again for giving me the honor to testify 
before the committee. I, too, would just keep my remarks brief 
at the entry here and just highlight some of the top line data 
points from our budget submit.
    We have got about an $8 billion budget in front of you this 
year. That is down to reflect most of our BRAC construction 
under way, with the remaining portion there just the human 
capital moves and the IT investments needed to hit the date. If 
you adjust for about 50 projects in OCO [Overseas Contingency 
Operations], that leaves us with about 230 projects and $5.8 
billion this year. And it is kind of fun to say that that is a 
little bit compared to what we have been doing in the last four 
years, but it is still a pretty big program.
    Of that amount of cash, about one-quarter of it is tied to 
barracks. I know we continue to listen to guidance from the 
committee, and we also thank you for last year's acceleration 
of training barracks. We have got about a quarter of the 
resources this year plugged into barracks. That will result in 
new barrack spaces for over 8,000 soldiers. If you count what 
we are also spending on the SRM [Sustainment, Restoration, and 
Modernization] side, we are upgrading another 5,000 spaces for 
soldiers, so that is over 13,000 barrack spaces that we are 
bringing a better quality of life to.
    Another quarter of our budget is tied to the Army modular 
force. That is to keep consistent with our commitment to 
complete the Grow the Army transformation by fiscal year 2013.
    The remaining half of the budget is spread amongst the 
usual activities and family housing, the housing assistance 
program, which we are having a lot of positive success with, 
wounded warriors, and other unspecified minor construction.
    I would like to just touch on BOS, the base operating 
support account. I know you have been following that, as I 
have. We had a purchasing challenge this year of about $1.5 
billion. We are working that very aggressively. It is one of my 
top three on my list. I will tell you that our fiscal year 2011 
budget, while it is based on this year's budget baseline, we 
are working really hard to achieve that target, and I feel 
comfortable with it.
    There will be no cuts to the Army Force Generation, to the 
Family Covenant or to Life Safety. We have identified about a 
third of the savings from this year's budget that would help 
adjust that baseline last year. We also plan to do a midyear 
review this year, and I think on the surface we have got about 
a four to five percent challenge point for the remainder of the 
year. So I feel pretty comfortable, as we get into the base 
operating support area, that we will have enough resources to 
deliver what we need.
    The last B I would like to touch on is brigades. I know I 
had a lot of fun with you last year talking about brigade 
configurations after the reduction, where we are in thickening 
the force. We are looking at the force structure tied to the 
populations that are still in the Army not in those brigade 
combat configurations. We expect in the next several weeks to 
finalize our decision on stationing and come out with the final 
stationing plan for where that thickening of the force will go.
    I understand your comments on the QDR. We, too, are waiting 
for information to come out of that. I would just close by 
telling you that none of the projects in our fiscal year 2011 
budget are impacted by that QDR decision. We have no 
investments that will be implicated by the decision to keep 
those brigades in Europe, and we are looking forward to a NATO 
[North Atlantic Treaty organization] conference, I think, is 
the next opportunity to bring some clarity to that issue in 
November, at which time we would inform POM [Program Objectives 
Memorandum] 1217.
    So, believe it or not, I am looking forward to your 
questions, sir. And that concludes my opening remarks.
    [The prepared statement of Mr. Calcara can be found in the 
Appendix on page 68.]
    Mr. Ortiz. Thank you, sir.
    Mr. Natsuhara, Mr. Secretary, whenever you are ready, sir.

    STATEMENT OF HON. ROGER M. NATSUHARA, ACTING ASSISTANT 
  SECRETARY OF THE NAVY, INSTALLATIONS AND ENVIRONMENT, U.S. 
                     DEPARTMENT OF THE NAVY

    Mr. Natsuhara. Good afternoon, sir. Thank you, Chairman 
Ortiz, Representative Forbes, and members of the subcommittee. 
I am pleased to appear before you today to provide an overview 
of the Department of the Navy's investments in its shore 
infrastructure.
    The department's fiscal year 2011 budget request includes 
$14.9 billion in investment in our installations. Our request 
for base operating support is $6.9 billion, which includes $450 
million for environmental programs. The military construction 
request of $3.9 billion remains at a historic high. Our program 
continues the efforts to ensure facilities are in place to 
support the Marine Corps end strength of 202,100 active duty 
personnel.
    We are investing over $700 million in funding for the 
construction of unaccompanied housing to support single sailors 
and Marines. These funds support requirements associated with 
the Marine Corps Grow the Force initiative and the Chief of 
Naval Operations commitment to achieve Homeport Ashore by 2016.
    The MILCON [military construction] request also provides 
further investments to relocate Marines from Okinawa to Guam. 
The projects funded by this level of investment provide the 
enduring infrastructure necessary to enable the construction 
program for fiscal year 2012 and beyond. The governor of Japan 
in his fiscal year 2010 budget has requested a comparable 
amount of $498 million, and we expect to receive their 
contribution in June.
    Regarding the EIS [Environmental Impact Statement] for the 
Guam relocation, as it is designed to do, the National 
Environmental Policy Act process and associated studies are 
helping us identify and address environmental issues and 
constraints and develop effective mitigation strategies. To 
that end we are currently analyzing all public comments, 
including those received from other resource agencies, in 
developing strategies for addressing concerns raised in the 
final EIS. We are committed to developing effective and 
appropriate mitigation.
    The family housing request will provide for the 
recapitalization of overseas housing as well as additional 
privatization to address the Marine Corps' Grow the Force 
initiative.
    Regarding prior BRAC, we do not foresee much potential for 
large revenue from land sales. Thus, we again seek appropriated 
funds in fiscal year 2011 in the amount of $162 million. The 
BRAC 2005 budget request of $342 million supports outfitting, 
realignment and closure functions as the necessary construction 
projects were funded in prior years. We are on track for full 
compliance with statutory requirements by the September 15, 
2011 deadline.
    Finally, the department is investing an additional $174 
million to support the Secretary of the Navy's aggressive 
energy goals to increase energy security, reduce dependency on 
fossil fuels, and promote good stewardship of the environment.
    In closing, your support of the department's fiscal year 
2011 budget request will ensure the department is able to build 
and maintain facilities that will enable our Navy and Marine 
Corps to meet the diverse challenges of tomorrow. Thank you for 
the opportunity to testify before you today. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Natsuhara can be found in 
the Appendix on page 84.]
    Mr. Ortiz. Thank you, Sir.
    Secretary Ferguson? Thank you. Good to see you again. Thank 
you for joining us.
    Ms. Ferguson. Good to see you.
    Mr. Ortiz. Whenever you are ready.

 STATEMENT OF KATHLEEN I. FERGUSON, DEPUTY ASSISTANT SECRETARY 
  OF THE AIR FORCE, INSTALLATIONS, U.S. DEPARTMENT OF THE AIR 
                             FORCE

    Ms. Ferguson. Chairman Ortiz, Congressman Forbes, and 
distinguished members of the committee, good afternoon. And 
thank you for inviting me here today to address the Air Force's 
military construction, family housing, and BRAC implementation 
programs.
    I would like to begin by thanking the committee for its 
continued support of our Air Force and the thousands of 
dedicated and brave airmen and their families serving our great 
Nation. Today more than 26,000 airmen are deployed in support 
of ongoing operations in Iraq, Afghanistan, the Horn of Africa, 
and many other locations. The ability of those airmen to 
perform their worldwide missions is directly affected by the 
quality of resources at their disposal, access to quality 
facilities, a robust logistics infrastructure for sustainment, 
and a confidence that while they are deployed their families 
are well taken care of.
    Air Force MILCON, family housing, and BRAC programs form 
the foundation of our installations support infrastructure and 
provide the direct support responsible for meeting the needs of 
our airmen and their families. Our fiscal year 2011 President's 
budget request contains $5.5 billion for facility maintenance, 
military construction, military family housing, and BRAC, and 
is a 3.8 percent increase above our fiscal year 2010 request.
    Our facility maintenance and repair account represents the 
largest portion of the request, with $3.1 billion to maintain 
Air Force installations, including the six installations 
recently transferred to the Air Force through joint basing.
    The $1.5 billion military construction request ensures that 
construction is aligned with weapon system deliveries and 
strategic basing initiatives while we continue to accept some 
risk in aging infrastructure recapitalization.
    We also request a total of $252 million to continue 
implementing our BRAC 2005 program requirements as well as our 
legacy BRAC programs and environmental cleanup.
    I would like to close by briefly mentioning the Air Force's 
efforts in executing BRAC recommendations. To implement the 
assigned recommendation, the Air Force's plan calls for 
execution of nearly 400 separate actions, utilizing a budget 
that has been and remains fully funded at approximately $3.8 
billion. Two-thirds of this budget went towards military 
construction.
    Our BRAC MILCON program will make its last contract award 
before the close of this fiscal year, and in total we will 
execute 231 BRAC MILCON projects on 54 installations in 36 
states. I am confident in telling you the Air Force will 
complete implementation of BRAC 2005 on time and within budget.
    Mr. Chairman, Congressman Forbes, this concludes my 
remarks. Thank you and the committee again for your continued 
support of our airmen and their families. And I look forward to 
your questions.
    [The prepared statement of Ms. Ferguson can be found in the 
Appendix on page 112.]
    Mr. Ortiz. Thank you so much.
    After consultation with the minority, I now ask unanimous 
consent that Mr. Rush Holt from New Jersey be authorized to 
question the panel members at today's hearing. Mr. Holt will be 
recognized after all House Armed Services Committee members 
have had an opportunity to ask questions.
    Is there any objection?
    Hearing no objection, so ordered.
    We will recognize you when the time comes, Mr. Holt.
    Let me ask a question, but I would like to allow members to 
have time to also ask questions.
    But, Secretary Robyn, I have been briefed on the 
implementation of BRAC 2005, and I am concerned about a recent 
proposal by the Administration to continue to accelerate 
contracts, you know, at a cost of several hundred million 
dollars. And I am also concerned that this Administration 
considers putting organizations in trailers. And we discussed 
this a little bit a few moments ago.
    As long as a long-term BRAC solution, considering the 
numerous issues that are facing the Department in implementing 
BRAC, maybe you could elaborate on some of the problems that 
you are facing and provide some perspective as to whether BRAC 
should be legislatively extended as well for certain BRAC 
recommendations. If you can touch on those two questions about 
the trailers and BRAC.
    Dr. Robyn. Good. Thank you for the opportunity to answer 
that.
    First of all, let me say no trailers. There are no 
trailers. And I will let Joe Calcara talk about what 
relocatables mean, that they are very different than trailers. 
This is a modular construction that is used widely and can be 
very high quality.
    Let me just say a word about why BRAC is important and why 
I think it doesn't lend itself to a narrow cost-benefit 
analysis when you get down to this stage, why achieving the 
deadline, why meeting the deadline is so important and why the 
Department has worked so hard to avoid missing a deadline in 
the last four rounds of BRAC.
    First of all, it means that we are achieving the benefits 
that BRAC brings sooner rather than later. It marks an end of 
the turmoil that the transition represents. You get the 
contractors off the base. It is the end of all the turmoil that 
goes with BRAC. It preserves the discipline on us, and that is 
probably the single most important reason.
    The nature of BRAC is that we tie our hands. You tie your 
hands. We all agreed to tie our hands. It is like putting a 
lock on the refrigerator door. It is a conscious decision we 
make, knowing that we need discipline. And we have got to 
maintain that discipline.
    And finally, it provides communities with a sense of 
certainty about when this is going to be over. So for all of 
those reasons, meeting the deadline takes on an importance 
beyond the letter of the law or a narrow cost-benefit analysis. 
And it is in that spirit that we are opting to spend some 
additional money. I don't think we are sacrificing quality.
    BRAC has been an engine of recapitalization for our 
facilities. Seventy percent of the cost of this BRAC has gone 
to military construction. In contrast to previous rounds, it 
was about half--less than half that. So we have used the 
opportunity of BRAC to do an enormous amount of construction 
beyond what we initially envisioned, building new high-quality 
buildings rather than doing a band-aid approach.
    So I don't think there has been a trade-off on quality at 
any point, and I think that that is also the case for the ones 
that are going to come close to the deadline. So we think we 
can make the deadline. We think it is worth spending a little 
bit more money. We will keep you all posted regularly on the 
progress of implementation at those spaces, but we think we are 
in good shape.
    Mr. Ortiz. Secretary Calcara, I have another question. I 
know you expanded on it a little bit a few moments ago, but 
maybe you can give us a little more input. I understand that 
the Army is reviewing options to reprogram funds into the Army 
base operating services account for 2010. Absent this 
reprogramming, I understand that the Army would need to reduce 
services at Army installations by about 20 percent. I would 
encourage you to expeditiously reprogram those funds. You 
touched a little bit on it a few moments ago.
    I am also concerned about the apparent shortfalls of funds 
in the President's budget request for 2011. Can you explain the 
impact to Army installations if funds are provided at the 
requested amount for 2011? And what additional funds would be 
needed to sustain the current level of service in both 2010 and 
2011? Can you help us a little bit on that?
    Mr. Calcara. Yes, sir. And I am glad we start with 2010, 
because that kind of tees up the context and the point of 
reference for 2011. We have a $1.5 billion purchasing power 
shortfall as a result of some more discipline in how we are 
using OCO funds. I know you have heard the sound bites on this 
before, but as we were growing the Army, we needed to use all 
our accounts. We had some flexibility to get resources in place 
to support Grow the Army, and the base operating support 
account benefited from the ability of the overseas contingency 
account.
    The fiscal year 2010 budget went to the Hill. The doctrinal 
change was to be more pure like it used to be and not access 
those dollars, so what we essentially found ourselves doing was 
looking at how much money we had and what was our purchasing 
shortfall. I know you have heard the number $1.5 billion.
    We quickly decided what was going to be a must-fund and 
what areas we would explore savings and efficiencies with. And 
it is important to note that base operating support is a huge 
array of services. It is 49 functional areas, 267 products and 
services, 364 functional specialties inside those products and 
services. It is a wide array of products and services that feed 
off of that.
    What we have done is we have essentially developed a 
strategy that we have already achieved one-third savings in 
those without a loss in provision of the services, so $500 
million off the top. We already have identified about a third 
of it that we can achieve suggest savings without any 
reductions to the things that I mentioned before, ARFORGEN 
[Army Force Generation], Family Covenant, as well as Life 
Safety.
    Another third of the issue we will need help on, and we 
don't think we will be able to get there, and that is what the 
$500 million request is about.
    The remaining third, which would constitute roughly about 
five to six percent of the overall BOS account, we think it is 
a manageable risk at this point. We are going to address it at 
midyear, and it is probably no different than we have had every 
other year at this point going into midyear or five percent 
challenge.
    Now, all that information as it relates to 2011, I told you 
we found one-third of the efficiencies we will be able to carry 
those forward to next year. We also have built a budget with 
one-third of the migration that was needed from the contingency 
account into BOS next year. So going into next year, a lot of 
numbers I threw at you were basically looking at that same five 
to seven percent risk target that we would address again at 
midyear with the covenant that we will not cut anything in Army 
Force Generation, the Family Covenant or the Life Safety.
    So put another way, we are taking a five percent risk going 
into midyear, not unmanageable, not unprecedented, sort of what 
happens every year due to unavoidable circumstances, tornadoes, 
electricity increases, things of that nature.
    Mr. Ortiz. So you to feel comfortable with the strategy 
that it is going to work and the families and the soldiers will 
continue to receive the services that we have been providing in 
the past to them.
    Mr. Calcara. Yes, sir. As a career civilian, 27 years in 
the installation business, yes, I rattled off the 364 products 
and services in the functional areas, I have looked at every 
one of these very, very in tune to this issue since it arose 
last few months, so I think we are okay.
    Mr. Ortiz. Thank you, sir.
    My good friend, Mr. Forbes, for any questions he might 
have.
    Mr. Forbes. Mr. Chairman, I have a number of questions, but 
as long as our witnesses are going to be here, I would like to 
defer mine to the end so that the other members can get theirs 
in, since they have five-minute limits. Is that okay?
    Mr. Ortiz. Yes, sir. We can do that.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, Mr. Forbes.
    And thank you, guests, for being here today.
    Madam Secretary, this question would probably be directed 
to you, and if anybody else can help me on this. I represent 
the 8th District of North Carolina, and the base, Fort Bragg, 
while it is not in our district, the reservation is, and vast 
numbers of the troops that work out of the base are living in 
the district. We are exceptionally fortunate in that BRAC is 
bringing in a lot of command and new operations to Fort Bragg, 
and once again we are exceptionally appreciative of that, glad 
of that, and looking forward to that.
    One area of opportunity that that presents for our part of 
the world is education. And while you mentioned about the 
upgrades in the schools on base, which we once again are very 
glad that it is happening, we do have outlying areas that we 
are seeing significant increases in populations that are 
already here and that are coming.
    I went to an elementary school on base--excuse me, in my 
district. I was talking to fourth graders and asked them how 
many of them had at least one or both parents in the military, 
and probably three-fourths of the young people raised their 
hand. This was a school that did have trailers on it, is 
overcrowded. It is a poor county, and for them to have all of 
the things ready in terms of water and sewage and 
transportation, fire, police, and to build new schools is a 
significant challenge.
    So what do I tell this county that is wanting to provide 
the best of facilities for the children of our warriors? And we 
of course know the soldiers want the best facilities for their 
children when we have these overcrowded situations and hard-
pressed to find funds to build the schools for them. What do I 
tell these people?
    Dr. Robyn. I don't know that I have an answer that will 
satisfy you. This is a new problem as far, as I am aware, to 
the 2005 round. When I worked with BRAC communities in the 
1990s, they were communities where we were closing bases. And 
when I met with the Association of Defense Communities in 
August shortly after I got on the job, I was surprised to see 
how many of the communities who came to meet with me were ones 
like the communities you are describing that were faced with 
too much of a good thing, one might say.
    In the transportation area I can say that we, of course, 
have historically funded projects that set the DAR criteria, 
the defense access roads criteria. Those criteria probably are 
outdated. The National Academy of Sciences is actually looking 
at that question of should the DAR criteria be updated to take 
account of the fact that the old criteria don't meet today's 
situation.
    In the area of schools, we simply don't do construction 
outside of the fence. We don't have that authority. There have 
been times where we have been directed to pay for schools, the 
upgrading of schools, but that is not something that we take 
on.
    The theory is that the Impact Aid that the department 
provides to the community, together with the increase in 
property taxes for at least for families that live off the 
base, will provide revenue, which can be used to--or the 
promise of which can be used to float bonds. But I recognize 
that there is a difficult transition there, and sometimes the 
troops show up before that can happen.
    The Office of Economic Adjustment--I know I met with folks 
from around Fort Bragg. I know that OEA [the Office of Economic 
Adjustment] is working with them to provide planning grants and 
technical assistance, but, unfortunately, not construction.
    Mr. Calcara. Sir, if I may, there are two schools in the 
fiscal year 2011 program for Fort Bragg. I am sure you are 
aware of that--$45 million. I would also tell you that 50 
percent of our service members who are living off post are 
homeowners in and around Fort Bragg and are, in addition to 
getting Impact Aid, are paying property tax as well, which 
would generate, obviously, revenues for the local school 
district.
    I would also tell you that in our RCI [Residential 
Communities Initiative] project, our privatization project on 
post, that the developer is paying property taxes on the 
improvements as well. So, you know, you have to sort of cobble 
together all the sources that are out there to help with the 
school issue in addition to the $45 million that we have in DOD 
[Department of Defense] projects.
    And I think, really, when you get into it, the issue with 
the schools is that the Impact Aid is paid in arrears after the 
students are through a school year. And my understanding of the 
challenge is to try to get Department of Education to pay that 
Impact Aid prospectively to get out ahead of the requirement. 
So perhaps there is, you know, a legislative approach there to 
try to--to help that, but it would be a Department of Education 
sort of approach.
    Mr. Kissell. And that is an issue, and I appreciate your 
answers, and we will continue to look, because the property 
taxes do help, but once again, you have the challenge of 
meeting this ready to go now, and some of this is coming to us. 
Thank you.
    And thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    Thank you for being here.
    This question is about the Portsmouth Naval Shipyard. It is 
the oldest continuously operating shipyard in the Navy. It was 
opened by John Adams 210 years ago. This is a shipyard that 
does terrific work by everybody's standards. Its primary 
mission is the overhaul, repair, and the modernization of 
submarines, and they do complex assignments well, especially 
considering the antiquated facilities and the lack of support 
from the Navy over the last three decades.
    Since 1971, for 39 years, the MILCON projects have not been 
provided through the Navy. My question is why. The new 
Virginia-class subs have begun arriving at the shipyard. This 
is very critical. We have had to rely on earmarks, and I would 
like to know why the Navy keeps leaving the Portsmouth Naval 
Shipyard off the MILCON list. Thank you. I look forward to your 
answer.
    Mr. Natsuhara. Thank you, ma'am.
    The Navy programs several accounts, as you know. How do we 
revitalize and sustain our bases? It is true that we have not 
had MILCON program for Portsmouth recently, but there are in 
the fiscal year 2010 budget. We do----
    Ms. Shea-Porter. May I just add ``recently'' is 39 years?
    Mr. Natsuhara. Yes, ma'am.
    Ms. Shea-Porter. Thank you.
    Mr. Natsuhara. In 2010, as an example, we have six special 
projects for $35 million that is going to go into the shipyard 
to help sustain it, revitalize it, and some of those are 
revitalization and modernization projects.
    Ms. Shea-Porter. Okay. You are aware, I am sure, that the 
waterfront support facility was built 68 years ago, that there 
are a large number of buildings that are now 100 years old. 
There are electrical code violations, environmental violations, 
et cetera. And do you have any hope of providing some funding 
here?
    Mr. Natsuhara. I am not aware of a project directly related 
to those. I will find out about those and get back to you.
    [The information referred to can be found in the Appendix 
on page 127.]
    Ms. Shea-Porter. Thank you. I would appreciate that.
    I yield back.
    Mr. Ortiz. The chairman of the Seapower Committee, Mr. 
Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank all of the witnesses.
    Mr. Calcara--is that proper pronunciation?
    Mr. Calcara. Yes, sir.
    Mr. Taylor. It is a question more in generalities than in 
specifics, but it has struck me that the neighborhood of Camp 
Shelby, Mississippi, near Hattiesburg, the Army has been 
renting an extraordinarily high number of homes since 2001. At 
what point does someone in the Army take a look and say, 
``Wouldn't we be better stewards of the taxpayers' money if we 
built additional housing on Camp Shelby rather than--``
    And again, I have mixed feelings on this. Obviously, it is 
great for the hotels in Hattiesburg. On the flip side, I have a 
Nation with a trillion-dollar annual operating deficit, and I 
would hope that someone in the Army--and I realize that is 
probably two different slices of the pizza; everybody worries 
about their slice and not reaching in the other ones--but at 
some point who in the Army looks at things like that? Because I 
am sure that is not unique to Camp Shelby.
    So who in your organization that is out there and says, 
``You know what? We would be better off building additional 
barracks on property we already own rather than every month 
paying, boy, literally every day paying for hotel rooms?''
    Mr. Calcara. Yes, sir. The actual Defense Department policy 
is to rely on the private sector first for provision of the 
housing solution. That is only to invest in government-owned 
assets where the private sector cannot respond.
    And every two years we do something called a housing market 
analysis, which is the study of the available assets that are 
in the economy, on the economy, that are suitable and can meet 
our needs. And the needs are tied to, you know, allowances or 
leasing controls that we have in the program, with the thought 
being that it is always, while it appears cheaper in upfront 
costs to build housing and manage it, over the lifecycle it is 
an operating liability, which is partly the reason why we go to 
privatization projects.
    A lot of words there, but the issue revolves around do we 
have a requirement that is large enough that cannot be met 
through the use of off-post solution, and if it is large 
enough, is the project financeable? Is there a business case 
for it to work in either our Residential Communities Initiative 
or through a lodging type solution?
    I am not aware of the Camp Shelby analytics for the 
requirement. I will certainly look into it for you and----
    Mr. Taylor. And again, I have mixed feelings on this, that 
I think your per diem is approximately $90 a day.
    Mr. Calcara. Correct.
    Mr. Taylor. It has made a heck of a lot of hotel owners 
very happy. On the flip side of this, $2,700 a month, and even 
in Washington, D.C., you can rent a very nice apartment for 
$2,700 a month. And I have got to believe that someone in the 
United States Army is clever enough to say, ``You know what? We 
could build a building for less than that.''
    And I am just--again, we have a--and I am----
    Mr. Calcara. Yes, sir.
    Mr. Taylor. I am picking on you individually. I am sure 
each of the services is doing this because of the surges 
required for the war.
    Mr. Calcara. Yes, sir.
    Mr. Taylor. But that is a specific that I am aware of, and 
that is why you are on the receiving end of this.
    Mr. Calcara. Yes. We do have a project in the FYDP that one 
of my lifelines in the back just passed me a note. We do have a 
project in the fiscal year 2012 program that we are currently 
looking at to accommodate that need. So my sense is we have in 
fact done that market analysis that I mentioned, and it appears 
that, at least at this point in time, sizing up a project for 
Camp Shelby in 2012 may in fact happen.
    I do want to make sure you see the full picture, though. It 
is not just the per diem. You know, we then have the lifecycle 
management and recapitalization. So when you see that per diem 
rate that we are paying, that gives us the flexibility to avoid 
carrying that long-term, you know, recap issue. So that is why, 
you know, part of the business case decision is to look at 
that. But----
    Mr. Taylor. Well, let me ask you this. Could someone brief 
me at some point, or possibly the committee? I would like to 
see your business plan on this. What is your threshold? And how 
and when do you make that decision? Because I think it is 
something that I would certainly like to know about, and I 
believe the committee would like to know about.
    Mr. Calcara. Yes, sir. We will certainly do that as we 
queue up these projects. I would tell you, not to be curt in 
the answer, but it is sort of a site-specific ``it depends'' 
kind of an answer. You know, how much is the construction? What 
is the size of the project? Projects have to be a certain size 
to put them in a privatization model. They have to be a certain 
size to be efficient to get funding through a MILCON solution, 
but we can do that for you. We will certainly schedule that and 
come over and see you.
    Mr. Taylor. All right.
    Thank you, Mr. Chairman.
    Mr. Ortiz. I think Mr. Taylor has raised a very important 
point there, and thank you for responding to this question and 
meeting with him.
    Now I will yield to Mr. Holt, and then from then I will go 
to my ranking member, Mr. Forbes.
    Mr. Holt. Thank you, Mr. Chairman.
    I would like to direct my questions to Dr. Robyn. But first 
of all calling my colleagues' attention to Dr. Robyn's 
biography, I noticed the association with the Office of 
Technology Assessment, and I hope that another time in a 
different forum, she would join me in pointing out the 
excellent work that the OTA [the Office of Technology 
Assessment] did in the past and the continuing need we have 
today for the kind of excellent work that OTA did.
    Dr. Robyn. Sir, you are a hero to all OTA alums.
    Mr. Holt. Thank you. As you may be aware, I and other 
members from the New Jersey delegation wrote to the President 
last year urging him to re-examine the decision to close Fort 
Monmouth, whose personnel are absolutely critical to our 
ability to provide proper intelligence and communications 
support for deployed troops.
    I know this Administration did not make that ill-advised 
decision, but since we now know that the cost estimates were 
bogus, that although the data manipulation and to support a 
foregone conclusion and the stacked deck and the information 
improperly withheld from the commission may not have been 
criminal, nevertheless they were surely regrettable.
    I want to ask you about it. A number of people associated 
with Fort Monmouth, both on the giving and receiving end, those 
who are doing the work there and those in the field, who depend 
on the C4ISR [Command, Control, Communications, Computers, 
Intelligence, Surveillance and Reconnaissance] services, goods 
and services, coming from there, tell me, well, in the words of 
one retired Army colonel, ``How can the Army continue to 
support a move that is flawed, way over budget, and cannot 
justify any cost savings at all?''
    But well beyond the financial and fiscal concern, what 
bothers many of us is that the soldiers in the field are not 
getting and will not get the C4ISR support they need, with 
deadly results.
    Well, just to elaborate on that, the Government 
Accountability Office has reported that if Fort Monmouth closes 
on schedule, the Army will be short, perhaps, 2,200 personnel. 
Now, these are very specialized personnel--engineering, 
procurement, and so forth--2,200 personnel that it will need to 
properly support our deployed troops.
    So my question is, will the Administration be revisiting 
the closure decision?
    Dr. Robyn. I really want to hand that one off to Joe 
Calcara. I feel certain the answer is no, but I can't--I know 
there is a long, long history, painful history surrounding the 
Monmouth closure, and I can take it for the record. I should 
probably also give----
    [The information referred to can be found in the Appendix 
on page 128.]
    Mr. Holt. If you would, please.
    Dr. Robyn [continuing]. Joe a shot at it.
    Mr. Holt. I am not alone in this. And as I say, you know, 
this retired colonel writes me and says, ``How can you do this 
when there are no cost savings at all?'' What people will not 
say on the record, but will say to me, is because the men and 
women in the field don't have somebody on the other end of 
the--or will not have somebody on the other end of the line 
when they call back and say, ``We need an upgrade for IED 
[Improvised Explosive Device] detection; we need this week's 
upgrade,'' and there won't be anybody on the other end of the 
line, they believe this is not just a financially flawed 
decision.
    Mr. Calcara. Sir, if I may----
    Mr. Holt. Yes, sir.
    Mr. Calcara [continuing]. And I am also from New Jersey, so 
hopefully you will be easy on me as well.
    Mr. Holt. Okay. But let me say right up front this is not a 
New Jersey parochial interest.
    Mr. Calcara. Yes. Yes, sir.
    Mr. Holt. And I resent it if people say that is what it is 
about, sir.
    Mr. Calcara. And I was going to actually answer and comment 
on it in a larger BRAC concept as we talk about cost growth at 
a location for additional capacity or a feature that was not 
included or the other sundry reasons that the budget grows for 
a move.
    But my comment is the payback period is still there. Now, 
it may not be as it was in----
    Mr. Holt. Does for decades count?
    Mr. Calcara. Well, I will tell you the numbers that we have 
on Fort Monmouth, even with additional growth, are justifying 
maybe an eight to nine-year payback versus six.
    I would also tell you that on a monthly basis, on a monthly 
basis, we get together the entire Army staff, command by 
command, and go through each of these locations from a human 
capital realignment standpoint, as well as the construction 
piece, which is kind of my lane.
    And in each individual base case, base location, we have 
the human resources people tracking the recruiting, the 
movements. And I guess I have not heard yet that there is a 
loss or there is a dramatic concern for intellectual capital at 
the APG [Aberdeen Proving Ground] receiver site. The job market 
is tough. There are people who are changing their minds to move 
from New Jersey. I left New Jersey. There is life outside of 
New Jersey.
    Mr. Holt. Yes, Mr. Calcara. Indeed, it was predicted that 
25 percent of the people would move to Aberdeen. It now looks 
like 50 percent.
    Mr. Calcara. Yes, sir. And growing every day.
    Mr. Holt. That means 50--no, no, it is leveling off at 
that, at 50 percent. And you will not find the other 50 
percent, and specialized engineers who can do communications in 
a noisy environment or IED detection or whatever it may be, you 
will not find them from temporary service employers. So the 
Government Accountability Office was very clear it will be mid-
decade before the shortfall will be filled in.
    With the gentleman's permission, I would just like to ask 
one more question of Dr. Robyn.
    The Army Materiel Command has repeatedly resisted any 
effort, so if the answer is no, this will not be revisited, the 
Materiel Command has repeatedly resisted efforts to create a 
backstop capability for the services that Fort Monmouth 
currently provides.
    The State of New Jersey has created a nonprofit technology 
solutions center that could help provide precisely that 
capability using the talent in the area, especially the current 
Fort Monmouth employees, who have chosen for various family and 
personal reasons not to move.
    We know that the McAfee Center, which is barely a decade 
old and has been a nerve center for the Army's key intelligence 
and communications programs, is still a very usable facility 
and will be for years to come. Can I have your commitment that 
you will work with me on this issue for, one, to ensure that 
the no-cost conveyance is available for the McAfee Center and 
that the department will work with this technology solutions 
center to see that the Army does have the technical backstop 
capability that the men and women in the field really, really 
need?
    Dr. Robyn. Yes, no, absolutely I would work with you. I 
don't know if it is a no-cost or another kind of, you know, 
cost EDC [Economic Development Conveyance], but yes, I 
specialize in EDCs. I would love to work with you on that, as 
well as the other issue. Thank you.
    Mr. Holt. Thank you.
    Thank you for your generous consideration, Mr. Chairman.
    Mr. Ortiz. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And once again, thank all of you for being here.
    And, Mr. Natsuhara, I would like to ask you a question. It 
is kind of a follow-up for what Congresswoman Shea-Porter was 
talking about with the Portsmouth Naval Shipyard and the fact 
that the Navy has not had a major MILCON project, I think, you 
said for 39 years there.
    How does the Navy view that shipyard? Is it a priority?
    Mr. Natsuhara. The Navy only has two shipyards on the East 
Coast, Portsmouth and Norfolk, and, yes, both shipyards are a 
priority to the Navy.
    Mr. Forbes. Wouldn't you say it would be a critical 
priority?
    Mr. Natsuhara. They are a priority of the Navy.
    Mr. Forbes. And would you say the Norfolk Naval Shipyard's 
also a critical priority?
    Mr. Natsuhara. They are both critical assets. Yes, sir.
    Mr. Forbes. Dr. Robyn, thank you for being here again with 
us. And we appreciate your willingness to and patience to put 
up with us as we fumble through these questions, but we have 
had a lot of questions about BRAC. What was the purpose of 
BRAC?
    Now, in full disclosure most of us were against BRAC, but 
what was the purpose for BRAC in a capsulized 60-second 
version, if you could give it to me?
    Dr. Robyn. The early BRAC rounds were----
    Mr. Forbes. The last one.
    Dr. Robyn. The last one was focused on enhancing military 
capability as opposed to getting rid of excess capacity, which 
was the traditional rationale.
    Mr. Forbes. So it was enhancing our capability.
    Dr. Robyn. Right.
    Mr. Forbes. Was that by expanding facilities, the number of 
facilities we had, or by consolidating facilities? Or where was 
the emphasis there?
    Dr. Robyn. I think both. I think the individual service 
representatives can probably give you better examples, but it 
was focused on military capability. Jointness was a major 
component. I mean, there are a number of focus areas, but 
certainly, consolidation has been a big issue, as you have 
heard from some of the communities that are suffering from too 
much of a good thing, but also the expansion of the receiving 
facilities.
    Mr. Forbes. So would it be fair to say--and again, don't 
let me put words in your mouth; I know you won't--but it was 
designed to increase our capability.
    Dr. Robyn. Right.
    Mr. Forbes. We were looking----
    Dr. Robyn. That was the overarching----
    Mr. Forbes [continuing]. Where we needed to increase our 
capabilities and the needs we had to increase those 
capabilities. Consolidation not for consolidation's sake, I 
would take it, but for the purpose of increasing our capability 
and perhaps efficiencies.
    Dr. Robyn. Right.
    Mr. Forbes. And then jointness.
    Dr. Robyn. Right.
    Mr. Forbes. And then also cost efficiency. Fair that we 
would do that.
    Mr. Natsuhara, you agree with Dr. Robyn?
    Mr. Natsuhara. Yes, sir.
    Mr. Forbes. Okay. The reason I want to ask you that is tell 
me why, if we were looking during BRAC at increasing our 
capabilities, at consolidation for efficiency's sake, at 
jointness, why was the transfer of a carrier from Norfolk to 
Mayport not even raised in that process?
    And tell me what has happened from the time that BRAC 
started to today why the Navy considers that now a greater 
priority than spending money at the Portsmouth Naval Shipyard 
or spending money at the Norfolk Naval Shipyard or for that 
matter any of our other shipyards that have about a $3 billion 
backlog right now.
    Mr. Natsuhara. I am not sure----
    Mr. Forbes. What happened different?
    Mr. Natsuhara. I am not sure why or what went through the 
process of the BRAC 2005, Navy BRAC 2005. The Navy BRAC 2005 
was one of the smallest BRAC rounds we have had. We did quite a 
bit of BRAC in the earlier rounds, especially 1991, 1993, 1995 
timeframe, so we didn't have many major bases closing. We had a 
lot of realignment in that during that round, especially of our 
reserve bases.
    As far as why we are moving a carrier to----
    Mr. Forbes. That is not my question.
    Mr. Natsuhara. Okay.
    Mr. Forbes. My question is what happened between the time 
of BRAC, when those kinds of issues were being considered and 
looking at, and today that changed so that the Navy is now 
considering doing that? Has anything changed in that time 
period?
    Mr. Natsuhara. I am not aware of those discussions and 
what----
    Mr. Forbes. So then when we looked at BRAC with our goal, 
stated goal--Dr. Robyn is, I think, absolutely correct--looking 
at the capabilities we needed, consolidation that should take 
place, jointness, cost efficiency, the carrier wasn't even on 
the radar screen. But something happened between then and now 
to not just put it on the radar screen, but to put it above the 
Portsmouth Naval Shipyard and the Norfolk Naval Shipyard.
    And the reason I raise that is because I understand from 
Admiral Roughead's testimony in the Senate for the fiscal year 
2009 budget testimony, he said that future shore readiness is 
at risk. And we know that there is now a backlog for 
installations of $36.6 billion.
    So my question to you is if in fact the Portsmouth Naval 
Shipyard is a critical shipyard, which I believe it to be, if 
the Norfolk Naval Shipyard is critical, what is it that makes 
spending either $590 million or what many estimates are up to 
$1 billion to move a carrier to Mayport more important than 
funding projects at Portsmouth Naval Shipyard and Norfolk Naval 
Shipyard, which the Admiral has said is putting us at a place 
right now where our shore readiness is at risk?
    Mr. Natsuhara. We tried to balance all the critical needs 
of the Navy, of the Department, across multiple years. So it is 
not that we are placing it more important than Portsmouth or--
--
    Mr. Forbes. I am not--Mr. Natsuhara--and I don't want to 
interrupt you, but if my friend and colleague down here is 
correct, and I know she would not say something that she didn't 
believe to be correct, 39 years is a long time to balance or to 
stretch over years.
    And when we have this major process of BRAC taking place, 
where we were supposed to look at all this, whether we make 
good decisions or not at Monmouth, I mean, you know, that is 
open to argument, but we all know that is when it was all put 
on the table. The carrier wasn't a blip on the screen. Nobody 
mentioned it. Nobody said, ``Oh, let us look at that, not at 
look at it.'' It wasn't even done.
    These projects have been on the screen for 39 years, and 
all of a sudden the Navy is coming up and saying, ``Oh, all of 
a sudden it is so vital that we do this'', even though all the 
evidence suggests it is a very, very small risk. It has some of 
us up here scratching our head and saying, ``Why, when you said 
you needed so much money and you have got future shore 
readiness at risk, you can't put a dime for these MILCON 
projects in shipyards that you admit are critical?''
    And by the way, in the Norfolk Shipyard, which I think is 
critical, just like Portsmouth, you have bumped a facility from 
2011 for controlled industrial facility--well, now you want to 
do one at Mayport. And yet Admiral Greenert the other day said 
all the docking availabilities for the carrier were going to be 
done in Norfolk. Explain why that is smart allocation of 
dollars.
    Mr. Natsuhara. From a critical infrastructure we look at--
and I am not sure what happened during BRAC--but we continually 
evaluate all the risk to the fleet, and after 2005 it was 
determined by the Navy that the critical infrastructure, the 
consequences of losing the only nuclear repair capability, was 
too great of a risk to the Nation, not that whether it is 
Portsmouth, Norfolk aren't important, but----
    Mr. Forbes. Now, tell me what are you talking about--the 
only repair facility?
    Mr. Natsuhara. Nuclear carrier repair facility.
    Mr. Forbes. Where are those carriers built?
    Mr. Natsuhara. At Newport News in----
    Mr. Forbes. Okay. So you are talking about the only one. 
You have got Norfolk Naval Shipyard----
    Mr. Natsuhara. Right.
    Mr. Forbes [continuing]. And you have got Newport News, 
which is just down the river. So you wouldn't lose them both at 
one time. You would still have the very place that you built 
the carrier, wouldn't you?
    Mr. Natsuhara. They are in the same geographic location 
that our nuclear capability--repair capability, so from a 
critical infrastructure, the consequences of losing the 
carrier, that repair capability in the Hampton Roads area, I 
look at it from the facilities of if we were to lose that 
repair capability in the Hampton Roads area, what would be the 
impact? And how would we recover? It is a--it is a large risk 
to the----
    Mr. Forbes. But none of that risk was raised during BRAC, 
was it, at all?
    Mr. Natsuhara. I am not----
    Mr. Forbes. Let me just say it wasn't. Let me ask you this 
question. I have a letter here from Senator Jim Webb, as you 
know, former Secretary of the Navy, now on the Senate Armed 
Services Committee. And he says this. He said, ``Stewardship of 
taxpayer dollars demands that the Navy first maintain its 
existing facilities properly before investing what could be up 
to $1 billion to build a new controlled industrial facility in 
Mayport to support a nuclear-powered aircraft carrier.''
    You just disagree, and you think Senator Webb is wrong on 
that, don't you? Or do you?
    Mr. Natsuhara. I think that in order for this country to be 
able to live with the risk of the consequence of losing that 
capability in the Hampton Roads area is just too great of a 
risk, if we were to lose that.
    Mr. Forbes. The last thing I want to ask you is this, and 
this is something you are going to need to get back to me on. 
In the QDR, were any lobbyists involved in the QDR and the 
decisions that were put in the QDR?
    Mr. Natsuhara. I am not aware of any, but I will take that 
for the record.
    [The information referred to can be found in the Appendix 
on page 127.]
    Mr. Forbes. Would you think it would be inappropriate if 
there were?
    Mr. Natsuhara. Yes, sir.
    Mr. Forbes. I am going to ask you, if you would, and this 
is based on Senator Webb's letter to Secretary Lynn on December 
23rd, 2009, when he asked for this information. I am going to 
ask that you get this back to us. He asked at this point in 
time if--he said, ``If you could give us information if whether 
or not in the past two years Admiral Natter has''--let me get 
his exact wording, because I want to read this to you exactly.
    What he has asked is this. He says that ``during the past 
two years, Admiral Natter has firmly advocated the Navy's 
carrier homeporting proposal for Mayport. Unfortunately, press 
reports quoting his views do not generally reveal that he is a 
paid lobbyist for the state of Florida and the city of 
Jacksonville, Florida. In addition to his Department of Defense 
contracts in the Four-Star for Hire mentor program, USA Today 
reported that he is also defense consultant and a board member 
of weapons maker BAE Systems. From 2004 through 2006, his firm 
received $1.5 million from the state of Florida to lobby the 
Navy and Congress on base closing decisions, federal lobbying 
records show.'' This is Senator Webb's letter.
    And the question he asked is whether or not you could give 
information as to whether or not Admiral Natter had any contact 
with anyone regarding the QDR when that was brought forward. So 
I just ask in compliance with Senator Webb's letter, if you 
would follow up and give us that information, if any of it 
exists.
    [The information referred to can be found in the Appendix 
on page 127.]
    Mr. Natsuhara. Yes, sir.
    Mr. Forbes. Okay.
    I would like to go back to Dr. Robyn. And, Dr. Robyn, these 
are questions I just don't have answers for. I would just ask, 
and if you don't know, I mean, you can get back to me with 
them.
    But the President's budget didn't include more than $1 
billion for MILCON in Afghanistan. As you heard in my opening 
remarks, none of those projects are going to be completed by 
July 2011, the date the President said we would begin our 
drawdown of forces there. Explain.
    Dr. Robyn. Well, I think it is sort of implicit in what you 
just said. That is the beginning of the drawdown, not the end 
of the drawdown. And as Secretary Gates has said, the transfer 
of security responsibility to the Afghans will be based on 
conditions on the ground, so we are not leaving on the--I mean, 
we will begin that process, but we won't end. And these are 
facilities that will provide support.
    Mr. Forbes. The curves, though, just seem to be going the 
wrong direction. I mean, and maybe just explain, if you would, 
to me, you know, we have got a curve where our constructions 
aren't going to be done, and about $1 billion, and we are 
talking about leaving. Is that because we are just having a few 
people leave, and we are still going to have a large number 
there, or--I mean, I would just think we would want to make 
sure we were going to have a pretty sizable force there, if we 
were going to spend $1 billion in these MILCON projects.
    Dr. Robyn. I definitely don't want to be speaking to our 
policy in Afghanistan and how----
    Mr. Forbes. No, no, I am asking you to speak to the budget.
    Dr. Robyn. Yes. No, I think the answer is we start leaving 
then. The pace at which we leave is to be determined. There are 
military construction needs for the time that we are there.
    Mr. Forbes. Would it be fair to say, though, if we were 
going to have $1 billion of MILCON for Afghanistan and not a 
single one of those projects completed before July of 2011, we 
were planning on having a fairly significant number of people 
there to use those projects, or else we wouldn't be building 
them?
    Dr. Robyn. I would not want to speculate on that.
    Mr. Forbes. Would it make good economic sense from a 
budgetary matter for us to be spending $1 billion for projects 
when we have----
    Dr. Robyn. It could well. I mean, we are, you know, we are 
at war. We are trying to win a war, and MILCON is----
    Mr. Forbes. But if we are going to spending them after we 
leave that war, that wouldn't make too much sense, would it?
    Dr. Robyn. I don't think that is the plan, but I think it 
is to--we need support while we are there.
    Mr. Forbes. Okay. Help me with this one, then. The 
President's budget also--and this I said in my opening remarks, 
too--includes funding for facilities in the United States for 
Army and Air Force units currently based in Europe, even though 
the QDR was silent on whether or not the Army brigade combat 
teams or Air Force fighter squadrons were indeed returning to 
the United States.
    If we are spending money here for them, are they coming 
back? Or are they staying there? And if we don't know, why are 
we spending money----
    Dr. Robyn. My understanding is that decision on how many 
will stay versus come here is to be made this fall in a NATO 
forum.
    Mr. Forbes. And I understand that. I am not arguing that. I 
am just saying shouldn't I know that decision? Am I getting the 
cart before the horse? Shouldn't I know that decision before I 
spend the money for the facilities to put them there, if I 
don't even know whether they are coming back?
    And anybody can--Mr. Calcara?
    Mr. Calcara. Yes, Mr. Forbes. I would just make two points. 
You know, we are kind of hamstrung without contingency 
construction authority over there to respond to emerging needs 
on the ground. So to the extent that we don't have the access 
to that authority, we have positioned these projects in the 
budget.
    I would suggest to you that at some point, if in fact we 
did not need them, we would cancel the projects. So we are sort 
of between a rock and a hard place here. Without the CCA 
[contingency construction authority], you know, we had to go 
down this programming approach.
    The second thing I would suggest to you is that once we get 
out of the warfighting business over there, I do believe there 
is a value in having facilities there for the train and 
sustain, the peacekeeping mission for the Afghan forces.
    Mr. Forbes. So just to make sure I am clear, we are back on 
Afghanistan. You kind of switched horses on me there. That is 
okay.
    Mr. Calcara. Yes, sir.
    Mr. Forbes. But I understand--and fair, good analogy.
    Mr. Calcara. Okay.
    Mr. Forbes. Are you going to take a bite? I am sorry. I 
will pass on some notes. I guess you got the last one on it, 
and that is fine. But tell me about the Europe situation.
    Mr. Calcara. Well, you know, the Europe situation, you 
start looking at it in terms of, you know, business case and 
the value of relationships in theater and having strategic 
assets in a geographic location.
    Mr. Forbes. No, no. Got you there. I understand that. But 
if we are going to make that decision, shouldn't we know 
whether we are going to change that dynamic before we spend 
money for the facilities? That is all I am asking.
    Mr. Calcara. I think, you know, I am hesitating with a yes 
or no answer, because it is a dynamic situation. You make the 
best decision when you have to develop the budget at this point 
in time that gives us the maximum flexibility. There are----
    Mr. Forbes. But let me--and again, forgive me for cutting 
you off. I am just trying to get an answer. And somebody else 
will give you some more notes. Read them. Take your time with 
looking at them, because this is open book. It is okay. I mean, 
we want to get----
    But I come back to what my friend, Ms. Porter, would say. 
You know, we are not building something there for 39 years when 
we say it is a critical need. And now we are saying we are 
going to build these facilities, and I am not saying we don't 
need them. It would just seem to me that common sense would say 
from an accounting point of view that I ought to know whether 
we are going to bring the units here.
    Mr. Calcara. Well, and none of our fiscal year 2011 
investments are at risk, pending the QDR decision. That is my 
understanding. I mean, we can go through----
    Mr. Forbes. No, no. Our problem is you haven't made some of 
your investments. I think that is what Carol would say, you 
know.
    Mr. Calcara. Right.
    Mr. Forbes. And I would agree with her. And I am not 
arguing where you are allocating your dollars. I am just simply 
saying it is hard for me from an economic point of view when 
the chairman and I have to sit up here and we have to say, 
``How are we just doing our oversight to make sure we are 
making efficient decisions?''
    It would just seem to me, from all the Economics 101 
classes that you have, I would want to know, okay, I am going 
to bring these assets here before I built facilities to keep 
them here, since I could always use that money somewhere else 
if I wasn't. Where am I wrong on that?
    Mr. Calcara. Well, you know, we have to almost go location 
by location, but, you know, in terms of Europe in the Army 
budget, we do not have any investments in fiscal year 2011 that 
will be impacted by a decision to pull out of there or to stay. 
And the requirements that we have there today include some 
housing at Baumholder and that is about it.
    Mr. Forbes. But you are still not--I am not questioning 
investments you have made before or decisions you made where 
you are not spending money. I am saying am I not right that the 
President's budget does include funding for facilities in the 
United States for Army and Air Force units that are currently 
based in Europe? And yet from what testimony we are hearing 
today, we don't know whether they are going to be returning to 
the United States. Am I wrong on that?
    Somebody is trying to give you help back there.
    Mr. Calcara. Yes, I guess I am stuck, because I know this 
budget backwards and forwards. The only dollars I know that we 
have invested in CONUS [Continental United States] for projects 
in Europe are in fiscal year 2010 at Fort Bliss. And those two 
facilities are being used by our Fires Brigade and our AETF 
[Army Evaluation Task Force] configuration down there.
    I don't know of any other capacity that has been built that 
is tied to a migration back, nor any investment that is made in 
2011 for retaining. You know, we are kind of in a pause period. 
So I guess I need clarity on the question.
    Mr. Forbes. Why don't we do this, then, so you don't have 
to keep passing those notes and I don't have to keep----
    I will give you a written question----
    Mr. Calcara. Okay.
    Mr. Forbes [continuing]. You know, because I don't want you 
to just have to just come off the cuff and do it, so that you 
can just tell me if I am wrong on the question or maybe trying 
to get your arms around the answer.
    And when I do that, also I am going to throw in this one. 
The President's budget also includes a substantial MILCON 
funding for basing the Joint Strike Fighter and yet, you know, 
we know that the fighter production has been delayed because of 
acquisition delays, and just kind of an explanation of that. 
And you can give me that now, or you can give me that when you 
respond to the other one.
    You want to point that down to Ms. Ferguson?
    Ms. Ferguson. That is actually me.
    Mr. Calcara. Kathy's turn for solidifying.
    Mr. Forbes. We have left you out of some of this.
    Ms. Ferguson. I get to join the fun here a little bit.
    Mr. Forbes. Yes.
    Ms. Ferguson. You are right. There has been a decision that 
reduces the Joint Strike Fighter, but it really doesn't affect 
delivery of any of the aircraft until fiscal year 2015. The 
projects that are in our fiscal year 2011 budget request are to 
support the delivery of the first airplane to the first 
operational location and the first airplane to the second 
training location, the first training location being Eglin.
    As we have gone back and re-looked at the delivery 
schedule, the delivery of those two airplanes slips by just 
three months from this summer to the fall of 2013. And backing 
that up, we need to have MILCON in 2011 in order to have those 
facilities available for when the aircraft comes on the ground.
    Mr. Forbes. Good. Ms. Ferguson, thank you.
    Mr. Calcara, I owe you a question that I will send to you 
to respond.
    And, Mr. Natsuhara, if you could just get me the answer to 
that one about Admiral Natter, if you would, based on Senator 
Webb's question.
    And again, Dr. Robyn, thank you again, and all of you for 
being here.
    Mr. Chairman, I yield back.
    Mr. Natsuhara. Sir, I do have a response from Secretary 
Lynn that went back to Senator Webb.
    Mr. Forbes. Oh, good. Can I just get a copy of that?
    Mr. Natsuhara. Yes, sir.
    Mr. Forbes. Did it include in there any information on 
that?
    Mr. Natsuhara. Yes, he specifically answered that question.
    Mr. Forbes. That is great. Thank you. If you will just give 
me a copy of that, that will be great.
    Mr. Natsuhara. All right.
    Mr. Forbes. I appreciate that. Thank you.
    Mr. Ortiz. You know, I have been here through all the base 
closures--five of them. And just between you and I, I hope I 
never see another one. We just came back from Puerto Rico. They 
shut down all the bases in Puerto Rico. And now we see all the 
problems that we have--Central America, South America, Mexico, 
and it pains me to see us leave 12,000 feet runways and a lot 
of facilities.
    And the problem that I have seen is that when we give 
something away, we might need it, but we will never get it 
back. But I know this is not your decisions. It was made by a 
base closure commission, and so I think that the members had 
some very legitimate questions to ask, you know. And I 
understand. I understand.
    But now I have several questions from Congresswoman 
Bordallo, little questions about Guam, little problem in Guam. 
But I am just going to ask one, because I know that we are 
going to have a meeting--I mean, votes--and I have a meeting at 
the White House in the next few minutes.
    But if you all have some other questions----
    I am going to ask one question, and this is what----
    Mr. Bishop is just coming in. He might have a question.
    This is her question, and she says, ``First, I would like 
to thank you for all the work that you do to provide the best 
quality of life for all our service members. And my first 
question,'' she says, ``is for Dr. Robyn. I want to follow up 
on the outcomes of the Economic Adjustments Committee that met 
several weeks ago at the White House to discuss the Guam 
military buildup. And as you know, the Port of Guam did not 
receive critical Recovery Act funding.''
    Voice. Ms. Bordallo just walked in.
    Ms. Bordallo. It is okay. Go ahead, Mr. Chairman.
    Mr. Ortiz. No, here you are.
    Ms. Bordallo. Where are you?
    Mr. Ortiz. Right here.
    Ms. Bordallo. How far did you get?
    Thank you very much, Mr. Chairman. I am sorry. I was down 
on the floor managing bills.
    First, I would like to thank you all for the work you do to 
provide the best quality of life for all our service members.
    And my first question is for Dr. Robyn. I want to follow up 
on the outcomes from the Economic Adjustment Committee that met 
several weeks ago at the White House to discuss the Guam 
military buildup. As you know, the Port of Guam did not receive 
critical Recovery Act funding, and this lack of funding will 
make it extremely difficult for the military buildup on Guam to 
move forward and be done in a timely and a cost-effective 
manner.
    So can you elaborate on what progress, if any, was made at 
the EAC [Economic Adjustment Committee] meeting to address 
Guam's critical civilian infrastructure needs? And will DOD 
take more of a leadership role in addressing these concerns? 
And what is the resolution on providing a comprehensive 
infrastructure plan for Guam? If you could answer those three 
questions.
    Dr. Robyn. Well, I think it is a work in progress. I think 
we will take more of a leadership role in identifying exactly 
what the needs are outside of the fence and figuring out how 
the federal government whole of government approach to 
financing it.
    But it is premature to say that that has done. It was a 
real honor to hear from both you and Governor Camacho several 
weeks ago, and it was a very productive meeting. And because of 
that meeting and because of the President's visit to Guam, this 
issue has become much more visible, which is very gratifying to 
Roger and me to have the White House send other agencies, 
becoming very aware of this issue.
    So we will keep communicating with you, but I can't--it is, 
you know, I don't have a finished product yet.
    Ms. Bordallo. So no decision was made, then, who would take 
the lead in this? We are finding such a difficult, you know, 
situation right now, because no one--everyone points fingers at 
the others, and we were hoping that the Department of Defense 
would take the lead.
    Dr. Robyn. I think we will take the lead on identifying 
what the needs are and leading a process to figure out how the 
agencies will collectively pay for what is needed and what is 
appropriate.
    Ms. Bordallo. Yes, and we are concerned about the grant 
that we lost at the Port. Would there be any update on that?
    Dr. Robyn. Well, no, I can't. I mean, that was a kind of a 
one-time thing. As you know, there is another tranche of TIGER 
[Transportation Investment Generating Economic Recovery] grant 
money, stimulus funding later this year. I have had many 
conversations with Maritime Administration since then, but I 
can't report to date any concrete progress.
    Ms. Bordallo. All right. Well, we hope that, you know, we 
will get word on it soon.
    And I have another quick question for Mr. Natsuhara.
    All right. At this time I would like to yield my time to 
Mr. Bishop, who has been here.
    No, go ahead, go ahead, go ahead.
    Mr. Bishop. Thank you.
    I guess the first question I have is why you are still here 
by the time I got back. [Laughter.]
    But let me try and be--at least one question not parochial, 
but I will be parochial at first.
    Ms. Ferguson, if I could start with you, first of all, I 
want to thank you so very much for what you and your office has 
done on EUL [Enhanced Use Lease] Falcon Hill as well. You have 
done yeoman's work. We are still not quite over all of the 
humps, but I am sure we will be. And I do want you to know how 
much I do appreciate what you have done there.
    On the non-parochial basis, though, I did notice in the 
President's fiscal year 2011 MILCON budget that when it comes 
to the Air Logistics Centers, there has been a huge slice taken 
not just from mine, but all three of those Air Logistics 
Centers that is there.
    Traditionally, we have seen increases that basically come 
to about $20 million per year for recapitalization, but at our 
ALCs [Air Logistics Centers], which are the largest, the most 
complex Air Force Bases, there must be some kind of commitment 
to recapitalization to maintain their missions.
    I would hope that this is perhaps just a one-year blip, but 
when I think Warner Robins is at zero percent on MILCON and the 
others are very, very low, I would like you if you would 
comment about that. I hope this is simply coincidence and not 
necessarily by design.
    Ms. Ferguson. I think I can answer part of that, and then I 
will take part of it for the record also.
    [The information referred to can be found in the Appendix 
on page 127.]
    Ms. Ferguson. Of course, as you know, the Air Force created 
the Air Force depot maintenance strategy back in 2002, and 
there was fairly robust funding from the period of 2004 through 
2009 of about $150 million a year, and to include depot 
infrastructure, including equipment and military construction 
and O&M [operation and maintenance]. And it was split each year 
depending on what the AFMC [Air Force Material Command] 
commander needed at that time.
    We invested about 325--I am sorry, $328 million in MILCON 
in each one of the three depots over that time, but now that 
commitment of $150 million commitment a year is--is not there 
anymore. But we did fund two projects in 2010, one at Tinker 
and one at Hill. And as you point out, there are two projects 
in fiscal year 2011 budget.
    What I will do is I will take back what is going to happen. 
I will take back for the record the plan for the Air Force from 
2012 and beyond.
    [The information referred to can be found in the Appendix 
on page 128.]
    Mr. Bishop. Thank you. I do appreciate what the Air Force 
has made a good commitment for our Air Logistics Centers. But 
once again, if you see a drop-off in the MILCON commitment that 
is a trend in the recapitalization, then there have other 
problems.
    So, Mr. Calcara, if I could hit up you parochially for just 
a minute, I am going to contend that you are the receiving end 
of what I was worried about may be happening on the Air Force 
side of those.
    I have two elements of your jurisdiction in my district in 
the state--first of all, Dugway, which once again has had an 
800 percent increase in its job functions since 9/11, but has 
not received the MILCON commitments to keep up with it, which 
means the Level Three biolabs still are now being housed in 
trailers, which does have public safety concern from our part 
at the same time.
    It is also a quality of life decision, specifically the--
oh, heaven--the commissary, for example. It is 50 years old. It 
is a 65-mile drive before they find any other civilization out 
there. We have some problems with the dining facilities. There 
are some of those issues that are still outstanding, and the 
Army has not necessarily been as proactive as the Air Force has 
in trying to meet those particular needs.
    If I could refer you to the Tooele Army Depot, for example, 
it has been 17 years since there was a MILCON commitment out 
there. We have some very problematic missions out there, but 
you don't even have the money to bring the buildings down until 
they do it of their own free will. That is a concern.
    That kind of a commitment to those depot situations, as 
well as to the biolabs out at Dugway, are a concern to me, and 
it is the same kind of issue at hand, except yours perhaps had 
started before then. Before it was the Air Force's, I am afraid 
of looking at, if that made sense.
    If you would like to comment--actually, I just gave you a 
lecture, but if you would like to comment on it, I would 
appreciate that.
    Mr. Calcara. Yes, sir. And I spent some time reading up on 
Tooele and Dugway recently. Let us take Tooele first. I think 
it is important to note that as an AMC [Army Material Command] 
installation, their economic anatomy is in the working capital 
fund, and a lot of the improvements and investment that they 
typically make are done through the working capital fund's 
flexibility.
    As far as their MILCON program goes, the way it works in 
the Army is the local base commander is responsible for 
identifying their highest priorities in terms of projects. And 
as it would, turns out that they do not have a top 20 request 
for a MILCON project coming out of Tooele. Their highest-
ranking project on their list is ranked 29, and it is in 2016.
    So we would love to sponsor some military construction 
there and look at it for integration in our integrated 
priorities. We just can't seem to get anyone locally there to 
prioritize it high enough on the list.
    Mr. Bishop. I appreciate your answer. Maybe I shouldn't 
have asked you for a response, because I think one of my 
staffers right now is having a heart attack back in the office, 
having heard your response there. There is, in some of the ways 
in which we make these types of plans, a Catch-22 factor. If 
you don't have the commitment to the projects there, it 
increases the cost, which lowers your size of where you can 
make those commitments.
    Let me just say that I appreciate that response. Seventeen 
years is still a long time. I am not quite buying, to be 
honest, that in 17 years there has been nothing that has risen 
to the level of MILCON necessity out there, but we have seen 
project after project that have been pushed to the right year 
after year, always at least five years away.
    So I appreciate that response. I don't know if I quite buy 
it, but I appreciate it very much.
    Mr. Calcara. Well, it is an honest response, and one of my 
lifelines also tells me next week we are meeting with your MLA 
[military legislative assistant] to go over the prioritization 
process to try to bring some more clarity to how do you get a 
project in competition, so--but the numbers are what they are. 
I am told number 29 in 2016, so----
    Mr. Bishop. I appreciate that again. I will give one plug. 
I am sorry for rambling on here. I am in the red zone already. 
I will give one plug to the colonel who is out there. She does 
a marvelous job with what is available for her.
    Ms. Bordallo. I thank the gentleman.
    And now I will come back to my questions. And I would like 
to ask the panel. I have a number of questions here, if you 
could just be very brief with your answers.
    Mr. Natsuhara, this question is for you. As you know, I put 
forward a set of concerns and counterproposals in my formal 
comments to the draft environmental impact statement, so I 
would like to get an update from you on where we are in the 
process of evaluating the comments on the draft EIS. What is 
the timeline now for putting forward the final EIS and for the 
signing of a record of decision?
    Mr. Natsuhara. Yes, all of the draft comments--all the 
comments on the draft EIS, including yours, are currently being 
evaluated by--we have TIGER team right now in Hawaii that is 
evaluating all the comments, and we are also working very 
closely, that by CEQ [the Council on Environmental Quality], to 
help us through the process of getting to our final EIS. It is 
still on track for late June, early July with a ROD [record of 
decision] signature.
    Ms. Bordallo. Could you give me that date again? Late----
    Mr. Natsuhara. Late June, early July.
    Ms. Bordallo. Late June or July, all right.
    Mr. Natsuhara. With a final EIS with a ROD in August.
    Ms. Bordallo. All right. Now, another question with the 
EIS. There was considerable pushback on the idea of housing the 
Marine aviation unit at Andersen Air Force Base. On Tuesday I 
had the opportunity here in Congress to discuss the Marine bed-
down plan with members of the National Military Family 
Association.
    Now, during the hearing I expressed my views regarding 
reduced land use by housing Marines in vertical structures such 
as condominiums. With regards to housing accommodations, this 
group agreed with me that as long as the Marines are housed in 
Guam standard housing, then they would support vertical 
structures such as condominiums, as opposed to single-family 
dwelling. Is there serious consideration being given to this 
issue?
    Mr. Natsuhara. This is the first I have heard about 
vertical housing. The Marine Corps is committed to building 
quality housing for the Marines, and the Department of Defense 
is also. Right now, the standard we are trying to achieve is 
similar to what the Navy currently is building in Guam, which 
are single-family homes.
    Ms. Bordallo. Well, I just wanted it to be on the record 
that the family association did agree that they would have no 
opposition, as long as the housing met standards.
    Secretary Ferguson, let me follow up on a question I asked 
to Mr. Natsuhara. Would the Air Force be willing to support an 
initiative to house the Marine aviation unit on existing Air 
Force land at Andersen Air Force Base in order to reduce the 
costly need for land acquisition and better position our 
service members in Guam?
    Ms. Ferguson. The Air Force and the Navy and Marine Corps 
have been working the siting issue since the very beginning, 
and we have already explored the possibility of locating more 
facilities at Andersen, but I think we collectively agree that 
the best plan is the one that is currently in the preferred 
alternative, which does not increase the housing on Andersen.
    Ms. Bordallo. I see. All right.
    Mr. Natsuhara, the EPA had some very strong comments about 
the draft EIS in regards to the lack of support and commitment 
for civilian infrastructure requirements. The EPA gave the 
lowest score possible, and this may continue unless this matter 
is resolved. What is the Navy doing to address the civilian 
infrastructure issue?
    And finally, where are we in the mediation efforts with the 
Fish and Wildlife Service and NOAA [the National Oceanic and 
Atmospheric Administration] regarding impact and mitigation of 
coral damage associated with the development of a transit CVN 
[nuclear-powered aircraft] carrier berthing?
    Mr. Natsuhara. This EIS, as you know, is a very complex 
EIS. It is the most comprehensive and complex EIS the 
department has undertaken. The analysis of all the impacts are 
currently being evaluated by EPA and all the resource agencies 
and with the assistance of the Department of Justice.
    CEQ is helping us work through to make sure that our 
analysis, our mitigation measures and the plan to mitigate 
those impacts are properly addressed in the EIS. And we are 
committed to making sure that we do not have a significant 
impact on Guam.
    Ms. Bordallo. What about the coral? Did you----
    Mr. Natsuhara. And we are also working with NOAA and CEQ 
with the Department of Justice to work through those coral 
issues also.
    Ms. Bordallo. Very good. All right. And also, Dr. Robyn and 
Mr. Natsuhara, I wanted to find out, to get a better 
understanding of whether mitigation funds from individual 
military construction projects can be used to support civilian 
infrastructure needs like upgrades to the port or wastewater 
treatment plants.
    And could these funds be used to support the University of 
Guam Center for Island Sustainability that is looking to act as 
a clearinghouse for solutions to difficult issues regarding the 
military buildup?
    Mr. Natsuhara. We are limited in what we have authority to 
use our mitigation funds. Our military MILCON funds essentially 
are for outside of--if it is directly related to the impact, we 
do have some flexibility there, but there is some limitation 
then. As we work through all the mitigations and identifying 
those, as much as we can we are going to try to commit to 
making those. But at this time I don't have that analysis.
    Ms. Bordallo. All right. If you had the authority, would 
the answer be different?
    Mr. Natsuhara. If we had the authority and the funds, yes, 
ma'am. We would----
    Ms. Bordallo. You would take it on.
    Mr. Natsuhara. Yes.
    Ms. Bordallo. All right.
    The other one is, Mr. Calcara, regarding the environmental 
impact statement being conducted on the Joint High Speed 
Vessel, the announcement of the notice of intent on the EIS 
came at a very bad time, right after the draft EIS on the 
military buildup from the Navy.
    Now, first, I am concerned about the lack of coordination 
between the services on this matter, and I am not sure why this 
action wouldn't be more closely coordinated with the Joint Guam 
Program Office. Could you explain the reasoning behind this 
decision? And second, can you provide more detail on why Guam 
is being looked at as a potential location for the stationing 
of the Army Joint High Speed Vessels?
    Mr. Calcara. Well, I will take the second question first, 
ma'am. We have identified a number of alternatives and, you 
know, that is just part of the process. It is one of the 
realistic and reasonable alternatives to consider. We are not 
selecting the site as the preferred alternative. It is just the 
beginning of the process.
    As far as JGPO, the Joint Guam Program Office not being 
aware of it, I guess I will have to get back to you on that. I 
don't know why. I don't really have environmental. I am not 
looking to dodge the question, but I would certainly follow up 
with that.
    [The information referred to can be found in the Appendix 
on page 127.]
    Ms. Bordallo. Very good. I think it all amounts to we have 
got to have better coordination here. We have got to have 
somebody at the head of this buildup, rather than to be looking 
at one another, pointing fingers as to who is in charge. And so 
that was one of the reasons we had the meeting at the White 
House, which I was very happy to be able to speak to everyone 
there.
    We need a schedule of funding, and we are very concerned 
about losing that grant for the port enhancement. That is one 
of the most important aspects. And if we are to meet the 2014 
deadline here that we are--you know, we have pinned up a wall, 
I mean, against a wall with this deadline date--we are going to 
have to have better coordination on the buildup. So these are 
some of the things. And, of course, the infrastructure outside 
the fence is very important to me as well.
    So I want to thank you all. And if you could get back with 
more specific answers to my questions, I would appreciate it, 
all right?
    There being no further questions, the Subcommittee on 
Readiness is now adjourned.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 18, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 18, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7700.001
    
    [GRAPHIC] [TIFF OMITTED] T7700.002
    
    [GRAPHIC] [TIFF OMITTED] T7700.003
    
    [GRAPHIC] [TIFF OMITTED] T7700.004
    
    [GRAPHIC] [TIFF OMITTED] T7700.005
    
    [GRAPHIC] [TIFF OMITTED] T7700.006
    
    [GRAPHIC] [TIFF OMITTED] T7700.007
    
    [GRAPHIC] [TIFF OMITTED] T7700.008
    
    [GRAPHIC] [TIFF OMITTED] T7700.009
    
    [GRAPHIC] [TIFF OMITTED] T7700.010
    
    [GRAPHIC] [TIFF OMITTED] T7700.011
    
    [GRAPHIC] [TIFF OMITTED] T7700.012
    
    [GRAPHIC] [TIFF OMITTED] T7700.013
    
    [GRAPHIC] [TIFF OMITTED] T7700.014
    
    [GRAPHIC] [TIFF OMITTED] T7700.015
    
    [GRAPHIC] [TIFF OMITTED] T7700.016
    
    [GRAPHIC] [TIFF OMITTED] T7700.017
    
    [GRAPHIC] [TIFF OMITTED] T7700.018
    
    [GRAPHIC] [TIFF OMITTED] T7700.019
    
    [GRAPHIC] [TIFF OMITTED] T7700.020
    
    [GRAPHIC] [TIFF OMITTED] T7700.021
    
    [GRAPHIC] [TIFF OMITTED] T7700.022
    
    [GRAPHIC] [TIFF OMITTED] T7700.023
    
    [GRAPHIC] [TIFF OMITTED] T7700.024
    
    [GRAPHIC] [TIFF OMITTED] T7700.025
    
    [GRAPHIC] [TIFF OMITTED] T7700.026
    
    [GRAPHIC] [TIFF OMITTED] T7700.027
    
    [GRAPHIC] [TIFF OMITTED] T7700.028
    
    [GRAPHIC] [TIFF OMITTED] T7700.029
    
    [GRAPHIC] [TIFF OMITTED] T7700.030
    
    [GRAPHIC] [TIFF OMITTED] T7700.031
    
    [GRAPHIC] [TIFF OMITTED] T7700.032
    
    [GRAPHIC] [TIFF OMITTED] T7700.033
    
    [GRAPHIC] [TIFF OMITTED] T7700.034
    
    [GRAPHIC] [TIFF OMITTED] T7700.035
    
    [GRAPHIC] [TIFF OMITTED] T7700.036
    
    [GRAPHIC] [TIFF OMITTED] T7700.037
    
    [GRAPHIC] [TIFF OMITTED] T7700.038
    
    [GRAPHIC] [TIFF OMITTED] T7700.039
    
    [GRAPHIC] [TIFF OMITTED] T7700.040
    
    [GRAPHIC] [TIFF OMITTED] T7700.041
    
    [GRAPHIC] [TIFF OMITTED] T7700.042
    
    [GRAPHIC] [TIFF OMITTED] T7700.043
    
    [GRAPHIC] [TIFF OMITTED] T7700.044
    
    [GRAPHIC] [TIFF OMITTED] T7700.045
    
    [GRAPHIC] [TIFF OMITTED] T7700.046
    
    [GRAPHIC] [TIFF OMITTED] T7700.047
    
    [GRAPHIC] [TIFF OMITTED] T7700.048
    
    [GRAPHIC] [TIFF OMITTED] T7700.049
    
    [GRAPHIC] [TIFF OMITTED] T7700.050
    
    [GRAPHIC] [TIFF OMITTED] T7700.051
    
    [GRAPHIC] [TIFF OMITTED] T7700.052
    
    [GRAPHIC] [TIFF OMITTED] T7700.053
    
    [GRAPHIC] [TIFF OMITTED] T7700.054
    
    [GRAPHIC] [TIFF OMITTED] T7700.055
    
    [GRAPHIC] [TIFF OMITTED] T7700.056
    
    [GRAPHIC] [TIFF OMITTED] T7700.057
    
    [GRAPHIC] [TIFF OMITTED] T7700.058
    
    [GRAPHIC] [TIFF OMITTED] T7700.059
    
    [GRAPHIC] [TIFF OMITTED] T7700.060
    
    [GRAPHIC] [TIFF OMITTED] T7700.061
    
    [GRAPHIC] [TIFF OMITTED] T7700.062
    
    [GRAPHIC] [TIFF OMITTED] T7700.063
    
    [GRAPHIC] [TIFF OMITTED] T7700.064
    
    [GRAPHIC] [TIFF OMITTED] T7700.065
    
    [GRAPHIC] [TIFF OMITTED] T7700.066
    
    [GRAPHIC] [TIFF OMITTED] T7700.067
    
    [GRAPHIC] [TIFF OMITTED] T7700.068
    
    [GRAPHIC] [TIFF OMITTED] T7700.069
    
    [GRAPHIC] [TIFF OMITTED] T7700.070
    
    [GRAPHIC] [TIFF OMITTED] T7700.071
    
    [GRAPHIC] [TIFF OMITTED] T7700.072
    
    [GRAPHIC] [TIFF OMITTED] T7700.073
    
    [GRAPHIC] [TIFF OMITTED] T7700.074
    
    [GRAPHIC] [TIFF OMITTED] T7700.075
    
    [GRAPHIC] [TIFF OMITTED] T7700.076
    
    [GRAPHIC] [TIFF OMITTED] T7700.077
    
    [GRAPHIC] [TIFF OMITTED] T7700.078
    
    [GRAPHIC] [TIFF OMITTED] T7700.079
    
    [GRAPHIC] [TIFF OMITTED] T7700.080
    
    [GRAPHIC] [TIFF OMITTED] T7700.081
    
    [GRAPHIC] [TIFF OMITTED] T7700.082
    
    [GRAPHIC] [TIFF OMITTED] T7700.083
    
    [GRAPHIC] [TIFF OMITTED] T7700.084
    
    [GRAPHIC] [TIFF OMITTED] T7700.085
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 18, 2010

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Natsuhara. Lobbyists were not involved in the Quadrennial 
Defense Review, nor the decisions within the Quadrennial Defense 
Review. [See page 22.]
    Mr. Natsuhara. Deputy Secretary of Defense Lynn responded to 
Senator Webb's letter on February 23, 2010. In his letter, he stated 
the following: ``Neither I nor the staff of the Office of the Secretary 
of Defense have consulted with ADM Robert J. Natter (ret.) during the 
course of the QDR.'' He also stated that the Department is reviewing 
the use of retired and general officers as senior mentors to ensure 
that the interests of the taxpayer are fully protected. [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    Mr. Calcara. The Army is currently scheduled to receive 5 Joint 
High Speed Vessels (JHSV), delivered one vessel per year beginning in 
2011. The U.S. Army Environmental Command (USAEC) is supporting the 
Department of the Army Force Management Office (DAMO-FM) in completing 
a Programmatic Environmental Impact Statement (PEIS) to support the 
stationing and operation of Army JHSVs and their associated 
detachments. Initial stationing criteria include the need for the 
vessel to have existing pier and berthing space, maintenance 
facilities, and the ability to meet the strategic needs of combatant 
commanders. Sites that meet these criteria have been carried forward 
for analysis as potential stationing locations for Army JHSVs. Several 
locations have met the criteria for Army JHSV stationing. Sites being 
carried forward for stationing analysis in the PEIS include sites in 
Guam, Hawaii, Virginia, California and Washington State. In addition to 
these sites, several overseas host-nation ports are also being 
considered for JHSV stationing. The JHSV PEIS has been coordinated 
extensively between the services and the Joint Guam Program Office 
(JGPO). This coordination occurred before the release of the Army's 
Notice of Intent (NOI) for JHSV stationing beginning in the summer of 
2009 and continues as the Army prepares to release the draft PEIS for 
JHSV stationing, scheduled to be released in the summer of 2010. The 
Department of the Army remains committed to properly coordinating 
stationing actions including the proposed JHSV action. [See page 32.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MS. SHEA-PORTER

    Mr. Natsuhara. Beyond the Special Projects mentioned in my 
testimony, various additional MILCON and Special Projects have been 
developed to address facility deficiencies identified in the Shipyard 
long-range infrastructure plan. These projects are assessed against all 
other mission-critical Navy requirements and prioritized for funding 
within our fiscal controls. Regarding your concern with the current 
conditions of the waterfront support facilities, we have developed a 
MILCON project to construct an annex to the existing steel fabrication 
facility to align and consolidate operations. This project, P-266, 
Consolidation of Structural Shops, is being considered in our current 
investment planning. We will continue to assess this project and look 
for opportunities to fund it as we develop future budgets. [See page 
14.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. BISHOP

    Ms. Ferguson. As part of implementing the Air Force's Depot 
Maintenance Strategy the Air Force maintains a Military Construction 
(MILCON) plan that ensures our depots are well maintained, 
environmentally compliant, efficiently configured, and properly 
equipped to support both existing depot maintenance workloads and new 
weapon system technologies. Title 10 USC 2476, Minimum Capital 
Investment, requires the Air Force to invest at least 6% of the average 
of the last three years of funded depot workload to promote depot 
maintenance processes/operations and facilities. The FY11 President's 
budget demonstrates the Air Force's commitment to comply with this law. 
[See page 28.]
    Ms. Ferguson. Air Force will oversee the infrastructure investment 
programs to optimize the depot repair enterprise across the Air 
Logistics Centers with the yearly infrastructure investments. We will 
carefully monitor capabilities over the long term and prioritize 
investments to support current and long-range workload ensuring 
compliance with the minimum capital investment requirement in 10 USC 
2476. [See page 29.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. HOLT

    Dr. Robyn. No. The Administration will not be revisiting the 
closure decision on Fort Monmouth, or any other BRAC recommendation.
    The Department of Defense conducted a comprehensive review of 
installation infrastructure pursuant to the statutory authority 
provided by Congress. The Department's recommendations, including the 
recommendation to close Fort Monmouth, resulted from a thorough 
analysis of all military installations in the United States and 
Territories on an equal footing, with military value as the primary 
consideration.
    Fort Monmouth is an acquisition and logistics installation with 
little capacity for other purposes. The Army ranked it 50th of 97 
installations in terms of its military value. Moving research, 
development and acquisition capabilities from Fort Monmouth and other 
locations (Fort Knox and Redstone) and combining them at Aberdeen 
Proving Ground (APG) allows the Army to enhance the evolution of its 
Net-Centric warfare capabilities. The strategy is to create a full-
spectrum research, development & acquisition, testing & evaluation 
center through the co-location of testing and evaluation facilities 
with the program managers and researchers. Even with cost growth, 
implementation of this recommendation will save over $153M annually 
beginning in FY 2012. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 18, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. The BRAC 2005 process requires the Department of Defense 
to complete associated realignments and closures by September 2011. 
Does the Department need additional flexibility in schedule to 
accomplish the BRAC 2005 timeline?
    Dr. Robyn. The Department opposes extending the deadline for any 
BRAC recommendation. The deadline keeps the Department focused on 
completing implementation and ensures that bases are closed 
expeditiously to allow communities to redevelop the property. While 
many recommendations are complex and will likely complete 
implementation right up to the deadline, preserving the deadline is key 
to maintaining the discipline that BRAC imposes. In addition, 
preserving the deadline:

    <bullet>  Allows the Department to achieve the benefits of each 
BRAC recommendation by a date certain;
    <bullet>  Forces an end to the turmoil of the BRAC transition 
process;
    <bullet>  Avoids additional construction costs;
    <bullet>  Enforces funding discipline on the Department--allows 
BRAC recommendations to compete effectively in the DoD program and 
budget processes;
    <bullet>  Maintains the Department's commitment to deliver on the 
``agreement'' with Congress for an effective and efficient BRAC 
process;
    <bullet>  Preserves the ``all or none'' component of BRAC--the 
Department cannot pick and choose which recommendations to delay; and
    <bullet>  Provides communities with certainty on when the property 
will be available for redevelopment--an important element of the reuse 
planning necessary for job creation

    Mr. Ortiz. How does the Department assess the strategic risk of 
moving a significant amount of the Department's command structure 
concurrently in fiscal year 2011?
    Dr. Robyn. The Department has six years to implement BRAC 
recommendations, providing ample time for managers to mitigate the 
impact of personnel moves on the command structure. This is why many of 
the realignments (DISA, NGA, FORSCOM) will have concurrent operations 
in FY2011.
    To the extent there are unmitigated impacts, the Department, no 
different from industry, must be allowed to balance these impacts with 
the benefits achieved through reconfiguring its infrastructure.
    Mr. Ortiz. How does the Department attribute the doubling of costs 
associated with BRAC 2005 implementation from the fiscal year 2006 
submission?
    Dr. Robyn. The Department originally estimated BRAC 2005 investment 
at $21.1B. In the FY 2011 budget submit, the total investment (which 
includes supplemental requests for Walter Reed) is estimated at $35.1B.
    While the dynamics causing the $14.0B cost increase are not 
discrete, they can be characterized and estimated as follows:


----------------------------------------------------------------------------------------------------------------
                                                                                    2  Outpatient documentation
                                       AHLTA                                                 capability
----------------------------------------------------------------------------------------------------------------
Adjusting the ``COBRA'' model output for inflation                                 $1.3B
----------------------------------------------------------------------------------------------------------------
Additional inflation resulting from slower implementation of this round as         $0.5B
 compared to the faster implementation profile assumed in COBRA
----------------------------------------------------------------------------------------------------------------
Extraordinary construction industry inflation since 2005. Approximately 70% of     $1.0B
 the $35.1B BRAC 2005 program or $24.6B supports MILCON requirements compared to
 33 percent experienced in the previous rounds.
----------------------------------------------------------------------------------------------------------------
Environmental restoration not included in COBRA                                    $0.4B
----------------------------------------------------------------------------------------------------------------
Program Management Costs not included in COBRA                                     $0.6B
----------------------------------------------------------------------------------------------------------------
Additional O&M to support fact of life cost increases                              $0.2B
----------------------------------------------------------------------------------------------------------------
Construction of additional facilities to enhance capabilities and/or address       $10.0B
 deficiencies--i.e., BRAC as a recapitalization engine.
----------------------------------------------------------------------------------------------------------------
Total                                                                              $14.0B
----------------------------------------------------------------------------------------------------------------


    Mr. Ortiz. The fiscal year 2011 Overseas Contingency Operations 
budget request for military construction was finalized before General 
McChrystal recommended the Afghanistan force structure and before the 
President determined to begin a troop withdrawal in June 2011. 
Considering the military construction will not be available until 
summer 2012, force structure and construction appear to be misaligned. 
Is the fiscal year 2011 Overseas Contingency Operations military 
construction request misaligned to support the future force structure?
    Dr. Robyn. The Overseas Contingency Operations military 
construction request is properly aligned to support future force 
structure in Afghanistan. The request provides operational capabilities 
by constructing consolidated command and control facilities and 
additional airfield capacity to support increased helicopter, airlift, 
ISR, and SOF assets. It also addresses basic infrastructure issues by 
replacing expedient facilities at the end of their useful life, 
building troop housing and dining facilities, and constructing 
wastewater treatment, utility, and force protection facilities. Lastly, 
it increases logistics capacity by providing additional fuel, storage, 
and cargo handling and distribution capability at critical locations 
that support inbound forces at locations where the operational 
footprint is expanding.
    Mr. Ortiz. What military construction authorities and funding 
levels are necessary to ensure the force structure and military 
construction are best aligned?
    Dr. Robyn. The Overseas Contingency Operations military 
construction request is properly aligned to support future force 
structure in Afghanistan. The FY 2011 OCO request of $1.2 billion is 
sufficient to expand the logistical backbone and operational foundation 
to enable continued counterinsurgency missions by increasing 
operational capability, replacing expeditionary facilities at the end 
of their lifecycle, consolidating functions and facilities, and 
supporting Special Operations Forces (SOF).
    Regarding construction authorities, we have submitted a proposal to 
Congress to raise the spending limit on the use of operation and 
maintenance (O&M) funds for unspecified minor construction (UMC) from 
$750,000 to $3,000,000 when applied to a project in support of a 
contingency operation, such as in Afghanistan. The existing threshold 
of $750,000 was established in 2002, without the knowledge we have 
gained after years of operations in Operation Iraqi Freedom/Operation 
Enduring freedom (OIF/OEF). Since that time, the cost of construction 
in theater has increased much more severely than the general 
construction market (up to 20-40% per year), pushing many small but 
essential projects beyond the O&M funding threshold for UMC. Under 
current law, when the cost for a project is between $750,000 and 
$3,000,000, commanders must use limited UMC (military construction) 
funding, or pursue Contingency Construction Authority that extends the 
project completion time. This is causing work-arounds in theater, often 
requiring solutions that do not fully meet urgent operational 
requirements. Increasing the O&M-funding threshold would provide an 
immediate authority at the Combined Joint Task Force (CJTF) level to 
execute critical, urgent projects without affecting longer-term project 
development or violating any mandates applicable to use of Contingency 
Construction Authority (CCA).
    Mr. Ortiz. The Army initially proposed to reduce BOS services by 
20% in fiscal year 2010 which would have caused garrison commands to 
release temporary and term employees, reduce contract services, and 
require the use of soldiers to perform grounds maintenance and 
custodial services. The Army has partially obviated the reduction by 
adding $500 million in fiscal year 2010. If the budget request for 2011 
is enacted at the proposed funding levels for BOS, additional 
reductions in services will be required. Does the Army support reducing 
services at the installations to meet reduced BOS funding levels?
    Mr. Calcara. There will be no reduction of installation services in 
support of Life, Health and Safety programs, the Army Family Covenant 
and Army Force Generation (ARFORGEN) requirements that ensures Soldiers 
are trained and equipped to meet the demands of our nation at war. The 
Army is conducting a comprehensive review of all BOS accounts to ensure 
adequate funding is maintained to meet Army priorities. Senior 
leadership is committed to looking for efficiencies and best practices 
in the use of BOS funds, but will not shortchange Soldiers and their 
Families in the process. Army's goal is to exact greater level of 
stewardship over its installations' resources and inculcate a cost 
culture.
    Mr. Ortiz. How does the Department propose to restructure the 
budget request to obviate further service reductions that would occur 
if the fiscal year 2011 budget request for BOS is enacted?
    Mr. Calcara. The Department continues to assess efficiencies gained 
this fiscal year that will mitigate shortfalls in FY11, also taking 
into account changes such as joint basing. The Department is fully 
prepared to rebalance funding to fully support the Army's most critical 
missions and leadership's priorities. The FY11 BOS funding request is 
general commensurate to FY10 funding and includes increases for Army 
senior leader initiatives (Sexual Harassment/Assault Response & 
Prevention (SHARP) and Suicide Prevention) and contract security guards 
in Europe. FY 11 also reflects a decline for resources transferred to 
the Air Force and Navy for joint base transfers. Army continues to 
explore every opportunity to be more effective and efficient with its 
current resource levels but believes it will still have some 
challenges. Army continues to assess BOS funding requirements to 
determine the appropriate funding level commensurate with mission 
requirements and the level of service Soldiers and their Families 
deserve.
    Mr. Ortiz. The Army initially indicated its intent to reduce the 
number of Brigade Combat Teams in Europe from four to two. The 
Administration decided to hold off on the implementation of this 
decision and is now indicating that a recommendation on the force 
structure will not be determined until fiscal year 2011. What 
capabilities would be lost if BCT forces were reduced in Europe?
    Mr. Calcara. (1) The Department must weigh how the support from our 
NATO allies may be affected by changes to our U.S. defense posture in 
Europe. NATO member nations provide much of our allied support for 
Afghanistan. The Department has stated in the QDR ``that a strong NATO 
that provides a credible Article 5 security commitment, deters threats 
to Alliance security, has access to U.S. capabilities'' (QDR, page 58)
    (2) The Department must determine the impact of a reduction on 
conducting Theater Security Cooperation (TSC) and Building Partner 
Capacity (BPC) with our NATO Allies and friends. A reduction of forces 
would limit the Army's ability to conduct training exercises in Task 
Force East (Hungry and Bulgaria), exercises with Poland and the Baltic 
States unless rotational forces from the United States are utilized.
    (3) The Department must also weigh other factors such as the 
challenge to generate forces to meet overseas contingency operations; 
resetting the force after over eight years of war; enhancing Soldier 
and Army Family well-being; and meeting the Title 10 responsibilities 
of recruiting, manning, equipping, and training.
    Mr. Ortiz. How does the Department balance this capability 
degradation in Europe with the cost savings associated with stationing 
forces in the United States?
    Mr. Calcara. Capability Degradation: To mitigate any capability 
degradation in Europe, the Department may rotate forces to Europe to 
signal to our allies that we still support the goals of NATO. The Army 
Force Generation (ARFORGEN) process would deploy forces to meet the 
objectives stated in the QDR: ``deter the political intimidation of 
allies and partners; promote stability in the Aegean, Balkans, 
Caucasus, and Black Sea regions; demonstrate U.S. commitment to NATO 
allies; build trust and goodwill among host nations; and facilitate 
multilateral operations in support of mutual security interests both 
inside and outside the continent.'' (QDR, page 64)
    Cost Savings: The analysis the Army has done to date, indicate that 
in the aggregate, the cost difference is neutral; but, the Army's cost 
analysis continues to be refined.
    Mr. Ortiz. The Navy has proposed to defer investments in facilities 
restoration and modernization.
    Why did the Navy elect to take risk in the facility accounts and 
delay critical restoration and modernization activities?
    Mr. Natsuhara. The Navy FY2011 budget request accepts risk in shore 
infrastructure in order to fund high operational demands, rising 
manpower costs, and critical maintenance for our ships and aircraft to 
reach their expected service life.
    Mr. Ortiz. What is the long-term effect of a delay in funding 
restoration and modernization activities?
    Mr. Natsuhara. We fund sustainment to 90% of the Facilities 
Sustainment Model in accordance with DoD direction in order to maintain 
facilities in their current condition. Deferral of major facility 
upgrades due to limited restoration and modernization funds results in 
continued operations from infrastructure that is not optimally 
configured to fully support the user's mission and relies on older, 
less efficient energy systems.
    Mr. Ortiz. The Marine Corps has requested $1.2 billion in the FY11 
budget to support an end-strength increase of 27,000 marines. Will 
infrastructure be built in time to support the arrival of the new 
27,000 Marines?
    Mr. Natsuhara. No, there are challenges in this area. The target 
date for achieving the end-strength is FY 2011. However, the Marine 
Corps attained its 202,000 end-strength goal in 2009. The Marine Corps 
infrastructure development plan remains on track, and we are supporting 
the accelerated growth in end strength with the continued 
implementation of our interim solutions including extended use of 
temporary facilities, slowing down of demolition, and more extensive 
use of Basic Allowance for Housing and temporarily adjusting assignment 
standards for Marines in barracks until permanent facilities are in 
place.
    Mr. Ortiz. What alternatives is the Marine Corps pursuing to 
accommodate growth?
    Mr. Natsuhara. Due to the long lead time for permanent facilities, 
units may be in temporary facility solutions for 2-4 years after unit 
standup. Temporary facility solutions include: doubling up personnel in 
existing facilities, slowing planned building demolition for use in the 
short term, and use of relocatable facilities (trailers, sprung 
shelters and pre-engineered buildings) to support operation 
requirements.
    For Marine Corps Bachelor Housing, until additional barracks are 
constructed, the Marine Corps has increased authorization of Basic 
Allowance for Housing (BAH) for senior Non-Commissioned Officers (NCOs) 
to allow them to live off-base, and has taken steps to temporarily 
billet Marines in surge/overflow barracks during renovations until new 
barracks come on-line. Temporary trailers/modular facilities are also 
being used to support initial training/accession pipeline throughput 
requirements.
    For Marine Corps Family Housing, the Marine Corps plans to rely on 
the communities near the military installations as the primary source 
of housing for addressing the additional family housing requirement due 
to Growing the Force. Where, through the conduct of housing market 
analyses, the Marine Corps has determined that the local community 
cannot support the housing needs of our military members, additional 
housing has been programmed. The Marine Corps plans to construct the 
housing through use of military housing privatization authorities.
    Mr. Ortiz. The Japanese Prime Minister indicated that he intended 
to ``start from scratch'' in reviewing options to relocate III Marine 
Expeditionary Forces (MEF) on Okinawa. The Japanese expect to provide a 
new realignment plan in May 2010. How does the apparent Japanese 
indecision in determining a final basing solution influence the Marine 
Corps' ability to project forces forward and provide regional 
stability?
    Mr. Natsuhara. Our current basing posture in Japan enables III MEF 
to remain forward postured to aid in Japan's defense and available to 
support regional security and stability. The ongoing review by the 
Government of Japan does not affect the status quo: we will continue to 
operate from our bases in Okinawa in support of bilateral agreements 
and regional obligations. Any Japanese proposed modification to the 
Agreed Implementation Plan must preserve this capability.
    Mr. Ortiz. Does the Marine Corps support moving forward with the 
Guam realignment while the Government of Japan is still reviewing 
options to move III MEF on Okinawa?
    Mr. Natsuhara. The U.S-Japan Roadmap agreement was a comprehensive 
set of realignment initiatives to meet the strategic needs of both 
allies. We understand that the Government of Japan is reviewing the 
agreement, and has promised a decision by the end of May. We are 
confident that they understand the strategic value of having Marines on 
Okinawa for their own defense and for security in the region.
    The Marine Corps requires that an aviation capability remain on 
Okinawa to support the rest of the Marine Air Ground Task Force 
stationed there. We currently have that capability at Marine Corps Air 
Station Futenma. If the currently agreed upon Futenma Replacement 
Facility (FRF) became untenable, we would continue to operate out of 
Marine Corps Air Station Futenma until an acceptable replacement 
facility is completed.
    Our relocation to Guam is a capabilities issue, not a basing issue, 
and we have a responsibility to provide ready and able forces in 
support of the Combatant Commander. Per the U.S.-Japan Roadmap 
agreement and the Guam International Agreement, the move of Marine 
units from Okinawa to Guam will not take place until tangible progress 
is made on the FRF.
    Mr. Ortiz. When does the Department anticipate completing the 
overall realignment to Guam, and does the EIS need to be modified to 
reflect more realistic timelines?
    Mr. Natsuhara. The United States and Japan concluded an 
international agreement to move 8,000 Marines from Okinawa to Guam by 
2014. The Guam Environmental Impact Statement (EIS) uses the 2014 date 
as a benchmark to complete the overall realignment. However, there are 
indications that completing the move by 2014 is unachievable, and the 
Marine Corps MILCON Future Years Defense Plan (FYDP) supports 
completing the move beyond 2015. If the current plan relocates Marine 
Corps forces after 2015, the Guam EIS overstates the environmental 
impacts locally.
    Mr. Ortiz. The Navy has indicated that alternative CVN berthing is 
an important consideration in managing CVN assets. While the Navy has 
not programmed any construction funds in 2011, it has included $2 
million in planning and design funds to begin the construction design. 
What is the risk of a catastrophic event damaging Atlantic Coast CVN 
homeporting facilities, and how might that risk be altered by 
homeporting a CVN at Mayport?
    Mr. Natsuhara. It is difficult to quantify the precise likelihood 
of a natural or man-made catastrophic event. The risks of a 
catastrophic event damaging the sole aircraft carrier homeport and its 
facilities, however, must also include an assessment of the 
consequences. A catastrophic event of any type in the Hampton Roads 
Area, whether to the ships themselves, the shipping channel, Hampton 
Roads tunnel/bridge, the supporting maintenance and training 
infrastructure, or the surrounding community has the potential to 
severely limit East Coast Carrier operations.
    The flexibility of a second CVN capable homeport reduces risk, 
provides the Navy operational readiness and flexibility, and is 
consistent with homeporting strategies in place on the West Coast 
(i.e., Bremerton, Everett, & San Diego). Strategic dispersal ensures 
that the carriers, supporting maintenance and training critical 
infrastructure and the surrounding communities' skilled labor force are 
located in more than one East Coast facility.
    Mr. Ortiz. Are the costs associated with homeporting a CVN at 
Mayport worth the benefits in terms of hedging against the risk of a 
catastrophic event damaging Atlantic Coast CVN homeporting facilities?
    Mr. Natsuhara. The consequences of even one catastrophic event at 
the only nuclear carrier homeport on the Atlantic seaboard would be a 
devastating blow to our country and national defense. If a catastrophic 
event were to occur to a carrier homeport, it could require many years 
of rebuilding. Under these circumstances, the risk associated with 
having only one aircraft carrier homeport on the East Coast is 
significant, and given the consequences, unacceptable.
    SECDEF, SECNAV and QDR have all concluded that the risks and 
consequences of a catastrophic event make this a proper and prudent 
investment.
    Mr. Ortiz. The Air Force has proposed to defer investments in 
facilities sustainment and restoration. The Air Force is requesting 
funds necessary to support only 59% of the required facility 
recapitalization. Why did the Air Force elect to take risk in the 
facility accounts and delay critical restoration and modernization 
activities?
    Ms. Ferguson. During the development of the FY11 PB the Air Force 
had to make difficult decisions across all Air Force appropriations and 
elected to assume a certain level of ``risk in infrastructure'' in 
order to fund higher mission priorities.
    Mr. Ortiz. What is the long-term effect of a delay in funding 
restoration and modernization activities?
    Ms. Ferguson. Air Force leadership had to make hard decisions to 
balance funding across all AF appropriations and assumed ``risk in 
infrastructure'' in order to fund higher priorities. The Air Force 
recognizes that delays in restoration and modernization funding can 
result in increased life-cycle costs for maintaining aging facilities. 
The Air Force will continue to fund Sustainment, Restoration and 
Modernization based on priorities that ensure the Air Force meets the 
mission required to support the National Defense.
    Mr. Ortiz. The fiscal year 2011 Active Air Force MILCON budget 
request contains $1.3 billion. This limited infrastructure investment 
is causing significant inefficiencies locally and accelerating 
degradation of assigned aviation assets. Examples include: new F-22s 
arriving without hangars and other support infrastructure at Hickham 
AFB, Hawaii, and simulation trainers remaining in warehouses until the 
appropriate supporting infrastructure is programmed and built. Why did 
the Air Force not program infrastructure in time to support valuable 
aviation assets?
    Ms. Ferguson. With regards to infrastructure, there is no single 
``most'' critical area of risk. The risk we have had to take in 
facilities and infrastructure is broad and varies according to the need 
of each installation. We balance this risk across all installations by 
building our investment program from the bottom up, with wing 
commanders defining the needs of their installation. The need for 
MILCON investment is across all facilities types, such as operational, 
training, maintenance hangars, R&D, and quality of life. With a limited 
and fixed top line, we must determine our priorities using investment 
impact data and take risk where necessary. MILCON projects included in 
the program will be based on individual project merits and meeting Air 
Force priorities.
    However, aviation assets are obviously very important to the Air 
Force. Projects that supported aviation assets and new mission beddowns 
generally received a higher priority than other infrastructure projects 
when the Air Force determined which projects to fund as it took risk in 
infrastructure. But as available funding to the Air Force could not 
support all needed requirements, hard choices had, and continue, to be 
made.
    Mr. Ortiz. The Air Force has indicated that it intends to determine 
four JSF operational bases and one additional training base to support 
JSF in the next two years. How will encroachment and increased noise 
associated with the JSF variant impact the decision to base aviation 
assets?
    Ms. Ferguson. Now that the list of candidate bases has been 
released, the formal environmental impact analysis process and site 
assessments have begun, allowing communities around each candidate base 
to participate and provide input into the environmental impact 
analysis. No basing decision is final until the environmental impact 
analysis process and site assessments are complete. Based on the 
results of the formal environmental impact studies, which will assess 
the impact of many factors to include encroachment and noise, the Air 
Force expects to announce the F-35 Preferred Locations in Summer of 
2010. A final ROD is expected to be complete in mid- CY2011.
    Mr. Ortiz. How will the recent announcement of a delay in delivery 
of the Air Force JSF aircraft impact the basing decisions and the 
fiscal year 2011 military construction request?
    Ms. Ferguson. The announced procurement delays do not affect the 
initial basing decisions, the environmental impact study (EIS) and 
Record of Decision (ROD) timeline because they are required to support 
the MILCON projects necessary for receipt and beddown of F-35 aircraft 
at the first operational and next training location. The first 
operational aircraft will be delivered Summer 2013 and the first 
training aircraft for the potential second training location will be 
delivered Fall 2013. FY11 MILCON is required to support beddown at 
these to-be-determined (TBD) locations.
    Mr. Ortiz. The Air Force has taken steps to secure real estate 
interests in areas where aviation accidents are most likely to occur. 
However, there remains significant real estate that could pose a threat 
to the local community because of aviation operations. What steps is 
the Air Force taking to limit aviation accidents to the local 
community?
    Ms. Ferguson. One of our main approaches to limiting aviation 
accident impacts to the local community is to encourage compatible 
development in the areas with the greatest history of aircraft 
accidents occurring around the airfield. The areas with the greatest 
accident potential is the runway, followed by the clear zone, Accident 
Potential Zones (APZs) I and APZ II at the end of Air Force 
installation runways. Air Force installations continually work with 
local communities to limit development to low densities in APZs I and 
II. The Air Installations Compatible Use Zones (AICUZ) program 
discourages land uses that concentrate large numbers of people in a 
single area, e.g. churches, schools, auditoriums, residential, and 
manufacturing that involves flammable materials from being located in 
these two zones. Low intensity land uses such as some light industrial, 
wholesale trade, some business services, recreation, agriculture, and 
open space, mineral extraction can be compatible in APZ I if they don't 
create emissions that create visibility problems or attract birds. 
Compatible land uses for APZ II include all the ones compatible in APZ 
I plus a few more types of manufacturing, low intensity retail trade 
and low density single family residential (1-2 dwelling units per 
acre).
    The installations and local communities can also pursue 
encroachment partnering projects within APZs under the authority 
granted to the Services under USC Title 10, Section 2684a, and they can 
compete for funding for these types of projects through Office of the 
Secretary of Defense's Readiness and Environmental Protection 
Initiative (REPI) program.
    Mr. Ortiz. Does the Air Force have a program for each installation 
that limits aviation incidents to the local community?
    Ms. Ferguson. Yes. The Air Force conducts its Aviation Mishap 
Prevention Program under policy, guidance and oversight issued by the 
Air Force Chief of Safety. At the direction of the Air Force Chief of 
Safety, every installation responsible for a flying mission maintains a 
flight safety program with the over-arching goal of preventing aviation 
mishaps. An important part of that goal includes preventing mishaps on 
and around installations where Air Force aircraft operate.
    To accomplish that goal, Air Force installations incorporate mishap 
prevention programs in concert with community involvement, partnering, 
and information sharing. Some examples include Mid-Air Collision 
Avoidance Programs, Bird Aircraft Strike Hazards Programs, Flight 
Safety Participation in Airfield Certification Processes, Risk 
Management, and Crew/Cockpit Resource Management.
    In addition to the above listed programs, the Air Force also 
sponsors an aggressive Foreign Object Damage Prevention Program, and 
investigates local hazardous air traffic reports to identify and 
mitigate hazards to all aircraft operating in and around airfield 
environments.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. As you know, proper and adequate facilities are 
critical to readiness, recruiting, retention, and even family programs. 
This is truer today than ever before for the National Guard, which has 
not only transformed into an operational reserve, but which also 
utilizes their facilities for both their homeland and national security 
missions.
    For example, the Iowa National Guard based its flood relief 
operations in 2008 out of several Armories throughout Eastern Iowa. 
Today, they are utilizing them not only to train for a deployment to 
Afghanistan later this year--the largest deployment for the Iowa 
National Guard since WWII--but also for family readiness programs.
    The average age of the Iowa National Guard's facilities is 42 years 
old--about twice the age of many of the Soldiers and Airmen that drill 
out of them! In fact, Secretary McHugh recently testified that ``As to 
the distribution of MILCON, certainly, if I were a Guard or Reserve 
unit, I'd feel as though I wasn't getting what I needed, and we have to 
admit that.''
    Yet the Iowa Guard has never constructed a new armory through 
funding provided in the President's Budget Request--they have had to 
rely on our congressional delegation to secure the funding for them.
    In the FY 2010 Military Construction-VA Appropriations bill, 
Congress allocated $200 million specifically for Guard and Reserve 
military construction. The FY 2011 President's Budget Request reduces 
the Air National Guard military construction account by $188 million 
from the enacted level in 2010. While the budget proposal for the Army 
National Guard is $324 million over the FY 2010 enacted level, it is 
still far short of the projected need.
    Mr. Calcara--Please share with me the Army's plans to ensure that 
the Army National Guard's facilities adequately support their role as 
an operational reserve. Also, would you please share your thoughts on 
the degree to which the additional funds provided last
    Mr. Calcara. The Army's FY 11 President's Budget request for the 
National Guard is more than double the military construction (MILCON) 
request for FY 10. This may fall short of the Guard's actual 
requirement, but goes far in addressing critical needs.
    The Army's MILCON program supports the initiatives of the total 
force. Properly training and transforming the Reserve Components to 
modular, operational forces are very important Army initiatives. The 
Army National Guard will continue to work to align their MILCON 
priorities with Army Campaign Plan imperatives and other guiding 
documents to ensure they fully compete for limited resources. This is 
especially important as MILCON budgets decrease in size across the 
Future Years Defense Plan, with respect to the additional funds 
provided to the Reserve Components in FY 10, this initiative is 
allowing the Army National Guard to address critical requirements. 
Projects selected include the Owensboro (KY) Readiness Center, Bangor 
(ME) RTI Phase II, Mead (NE) Water Supply and Distribution Center, and 
Camp Grafton (ND) Shoreline Stabilization. These projects, each from a 
different region, provide the opportunity for additional training for 
soldiers, reduces resource requirements such as time or funding for 
existing training, and prevent loaming negative effects on readiness.
    Mr. Loebsack. Ms. Ferguson--Can you please explain to me how a 188% 
reduction in funding will ensure that the Air National Guard is 
adequate to support their mission? Does that funding level not take on 
significant risk?
    Ms. Ferguson. The Air Force made difficult decisions to arrive at 
the level of funding for recapitalization of infrastructure and the 
current level of risk in infrastructure programs. The Air Force $1.5B 
Military Construction (MILCON) request prioritizes all crucial 
requirements. The methodology continues taking risk in recapitalizing 
our aging infrastructure. The risk in MILCON and infrastructure 
programs is aligned with weapons system deliveries.

                                  <all>

</pre></body></html>
